<html>
<title> - THE ARMY MEDICAL ACTION PLAN: IS IT WORKING?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-161]

                     THE ARMY MEDICAL ACTION PLAN:

                             IS IT WORKING?

                               __________

                                HEARING

                               BEFORE THE

                    MILITARY PERSONNEL SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 22, 2008


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                    MILITARY PERSONNEL SUBCOMMITTEE

                 SUSAN A. DAVIS, California, Chairwoman
VIC SNYDER, Arkansas                 JOHN M. McHUGH, New York
LORETTA SANCHEZ, California          JOHN KLINE, Minnesota
NANCY BOYDA, Kansas                  THELMA DRAKE, Virginia
PATRICK J. MURPHY, Pennsylvania      WALTER B. JONES, North Carolina
CAROL SHEA-PORTER, New Hampshire     JOE WILSON, South Carolina
NIKI TSONGAS, Massachusetts
                David Kildee, Professional Staff Member
               Jeanette James, Professional Staff Member
                     Rosellen Kim, Staff Assistant















                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, July 22, 2008, The Army Medical Action Plan: Is It 
  Working?.......................................................     1

Appendix:

Tuesday, July 22, 2008...........................................    41
                              ----------                              

                         TUESDAY, JULY 22, 2008
              THE ARMY MEDICAL ACTION PLAN: IS IT WORKING?
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, 
  Chairwoman, Military Personnel Subcommittee....................     1
McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Military Personnel Subcommittee........................     3

                               WITNESSES

Cheek, Brig. Gen. Gary, USA, Assistant Surgeon General for 
  Warrior Care and Transition, and Director, Warrior Care and 
  Transition Office, Office of the Chief of Staff of the Army....     8
Rochelle, Lt. Gen. Michael, USA, Deputy Chief of Staff for 
  Personnel, G-1, U.S. Army......................................     4
Rubenstein, Maj. Gen. David, USA, Deputy Surgeon General of the 
  United States Army.............................................     7
Wilson, Lt. Gen. Robert, USA, Assistant Chief of Staff for 
  Installation Management and Commander, U.S. Army Installation 
  Management Command.............................................     6

                                APPENDIX

Prepared Statements:

    Davis, Hon. Susan A..........................................    45
    McHugh, Hon. John M..........................................    48
    Rochelle, Lt. Gen. Michael, joint with Lt. Gen. Robert 
      Wilson, Maj. Gen. David Rubenstein, Brig. Gen. Gary Cheek..    51

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................    61

Questions Submitted by Members Post Hearing:

    Mrs. Davis...................................................    65
    Mr. McHugh...................................................    69
 
              THE ARMY MEDICAL ACTION PLAN: IS IT WORKING?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                           Military Personnel Subcommittee,
                            Washington, DC, Tuesday, July 22, 2008.
    The subcommittee met, pursuant to call, at 2:03 p.m., in 
room 2212, Rayburn House Office Building, Hon. Susan A. Davis 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
    CALIFORNIA, CHAIRWOMAN, MILITARY PERSONNEL SUBCOMMITTEE

    Mrs. Davis. Good afternoon, everybody. Thank you very much 
for being here, especially to our witnesses. Thank you very 
much for being with us today, and participating. I know it will 
be, I hope, a very fruitful discussion.
    The purpose of today's hearing is to take a hard look at 
the current state of the Army Medical Action Plan (AMAP). This 
will be the third hearing this subcommittee has held on the 
Army Medical Action Plan, the Army's response to the 
revelations at Walter Reed Army Medical Center last year, since 
it was issued in June, 2007.
    When the Army Medical Plan execution order was issued last 
summer, the Military Personnel Subcommittee believed that the 
Army had finally demonstrated a full understanding and 
acceptance of the organizational and systemic shortcomings that 
had led to the scandalous conditions at Walter Reed. We felt 
that the Army Medical Action Plan was a comprehensive and 
ambitious blueprint to tackle these issues head on. After years 
of frustration, many on this subcommittee believed that the 
Army was finally ready to take the necessary steps to solve 
these problems.
    However, from our very first briefing on the Army Medical 
Action Plan, we had two significant concerns. The first was 
that the Army would be unable to initially dedicate and then 
maintain over the long haul the level of resources required by 
the Army Medical Action Plan. Specifically, we were worried 
that the Army would be unable to assign adequate numbers of 
personnel to the Warrior Transition Units (WTUs). Why? Because 
the core of the Warrior Transition Units were to be the same 
soldiers that make up the backbone of our brigade combat teams, 
midgrade noncommissioned officers, and these soldiers were 
already in short supply.
    The second concern was that Army commanders would overwhelm 
the Warrior Transition Units by sending them all of their 
soldiers with medical issues rather than just those with 
complex injuries or conditions that required comprehensive case 
management. In truth, we do not feel that this was necessarily 
a bad thing, especially if it helped units deploy at full 
strength, while injured or ill soldiers had the opportunity to 
fully recover. Of course, this would only work if Warrior 
Transition Units were properly resourced to take care of these 
soldiers.
    From June, 2007, through February, 2008, the members and 
staff of this subcommittee made numerous visits to Warrior 
Transition Units throughout the Army. The overall trend we 
observed was positive. The Army Medical Action Plan was clearly 
providing better support for recovering soldiers than the 
previous Medical Holdover system. One wounded warrior 
commented, ``Thank God for the Warrior Transition Unit. Things 
are so much better than they were before.''
    That was good to hear.
    But despite the positive trends, we were frustrated at the 
slow progress of implementing the AMAP. We felt that things 
should have and could have been moving faster. We also felt 
that there was a disconnect between how quickly the Army 
leadership believed things were happening and what the facts on 
the ground seemed to indicate. Again, despite the challenges, 
we felt things were moving in an overall positive direction.
    However, our concerns about Warrior Transition Unit 
staffing levels and the potential of line units, ``dumping'' 
soldiers on the Warrior Transition Unit, continued. We asked 
General Schoomaker about this repeatedly during our hearing in 
February to get an update on the AMAP. In response to a 
question asked by Mr. McHugh, the Army Surgeon General 
declared, ``For all intents and purposes, we are entirely 
staffed at the point we need to be staffed.'' As the facts at 
Fort Hood demonstrate, that is clearly not the case now.
    Gentlemen, the Army Medical Action Plan was designed by the 
Army. It is your plan. The Army senior leadership has publicly 
trumpeted your commitment to wounded soldiers at every 
opportunity, and we believe that that is true. The Secretary of 
Defense agrees; as Dr. Gates has made clear, Apart from the war 
itself, this Department and I have no higher priority.
    Over the course of this hearing, we will review the 
following topics.
    Resources: Why has the Army failed to properly resource the 
Warrior Transition Units?
    Warrior Transition (WT) population growth: Why did the Army 
fail to predict the growth in the WT population? We were 
assured by the Army during our hearing in February that you had 
the processes and reviews in place to stay on top of the 
population; and clearly that is not the case today.
    Priority: Is the Army Medical Action Plan truly the Army's 
number two priority? Our visits do not leave us with that 
impression.
    Creativity: From the outset, the Army Medical Action Plan 
has been sold as a bold roadmap to overhaul outdated, 
inefficient, and detrimental policies and procedures; and in 
fact, when General Tucker was selected to lead this effort last 
year, he was introduced to us as the Army's premier bureaucracy 
buster, responsible for identifying outmoded practices and 
leading the effort to develop new, more effective ways of doing 
business.
    Many of the problems that continue to hinder Warrior 
Transition Units seem to be an institutional insistence on 
doing things the old way.
    Oversight: Finally, and perhaps most importantly, why did 
it take oversight visits from the subcommittee to identify and 
spur the Army to fix these issues, and what will it take to 
ensure that the Army follows its own plan and lives up to its 
own promises?
    Gentlemen, aside from telling us you will work harder to 
implement--and know, we do believe that, and we know you are 
working very hard at this--what concrete steps are being taken 
to ensure better follow-through?
    I also want to mention that this subcommittee has worked 
very hard to make this an open and collaborative process. Our 
staff readily and routinely shares all of the information they 
collect at the Warrior Transition Units they visit. This 
includes conducting an outbrief with the cadre hospital chain 
of command and, frequently, representatives from the senior 
mission commander before they leave an installation. They have 
also met regularly with the surgeon general in the warrior 
transition office.
    There is nothing we have learned that we have not shared. 
There are no facts that we know that you do not.
    So let me be clear that we understand that the Army Medical 
Action Plan remains a work in progress. We do not expect that 
it would immediately resolve all problems. None of us could 
have expected that; we were certain that it would require 
modification and update along the way. However, we are very 
concerned that the Army took its eye off that ball, that you 
are not living up to the goals you set and the promises you 
made when the Army Medical Action Plan was issued.
    So we look forward to your testimony and to learn what 
steps you plan to take to ensure its success. We intend to make 
certain that our wounded warriors receive the care and the 
support they deserve by holding you to the standards you have 
yourselves set forth in the Army Medical Action Plan.
    I want to turn now to Mr. McHugh for his comments.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 45.]

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
     YORK, RANKING MEMBER, MILITARY PERSONNEL SUBCOMMITTEE

    Mr. McHugh. Thank you very much, Madam Chair. I have a 
rather extensive statement that I am not going to read in its 
entirety. I would ask for its unanimous adoption into the 
record without objection.
    Let me just make a few comments. First of all, Madam Chair, 
let me express my appreciation to you. As you noted, this is 
the third open hearing we have had. Both the Chair and other 
members and I have had the opportunity, as well, to visit 
Warrior Transition Units at various facilities and to meet with 
some of the command staff.
    I think it is important to say at the outset that I 
certainly agreed at the time this approach was implemented that 
it is the correct path. And for all of the challenges that we 
have encountered, I continue to believe that the WTU concept is 
a very, very positive one, responding to a rather new dimension 
of challenge in terms of treating with respect and dignity--and 
in, hopefully, the greatest facility--these warriors that have 
given so much on behalf of their Nation. And in no discussion I 
have had, in no trip I have made, no visit I have taken part in 
have I in any way had cause to question any of the devotion or 
dedication that the Army and its personnel bring to this 
challenge.
    That having been said, as the Chairlady I think very 
adequately and accurately outlined in her opening comments, 
there continue to be serious shortfalls; shortfalls that our 
staff did identify and that I know the Army continues to try to 
deal with. Serious questions, those of resources, of a 
mechanism that sufficiently anticipates the population growth 
that we have seen, an explosion in the cadre of these units and 
an expansion that we have every reasonable expectation will 
continue; the continued proliferation of rules and regulations, 
good old-fashioned bureaucracy that, for all of the efforts 
and, I think, successful attempts that have been made to 
identify them, far too often continue to frustrate those who 
are trying to do this very important challenge; and trying to 
ensure that we minimize the waits that are involved through, of 
course, the Medical Evaluation Board (MEB) process, and on and 
on and on.
    This hearing, I would say to our distinguished panelists, 
is an attempt to more fully discuss those challenges, those 
shortfalls, to try to get from you your perspective in a 
process by which we can all learn and, hopefully sooner and as 
quickly as possible, begin to do the best job by these folks 
who have done such incredibly positive work for us.
    So I want to add my words of welcome to our distinguished 
panelists that I know the Chair will introduce here, and I very 
much look forward to your testimony and, hopefully, to taking 
part in a process that can finally get this concept off paper 
and fully implemented in a way I know we all want to see it 
work.
    Madam Chair, thank you very much. I would yield back.
    [The prepared statement of Mr. McHugh can be found in the 
Appendix on page 48.]
    Mrs. Davis. Thank you, Mr. McHugh.
    I would turn to General Rochelle. I believe you are going 
to give the statement. Is that for everyone?
    General Rochelle. Madam Chair, I believe we each have a 
statement, an oral statements, but I would like to submit our 
joint written statement for the record, with your permission.
    Mrs. Davis. Absolutely.
    General Rochelle. If I may proceed with my oral statement?
    Mrs. Davis. Yes, please.
    General Rochelle. If I may proceed with oral statement?
    Mrs. Davis. Yes, please.

 STATEMENT OF LT. GEN. MICHAEL ROCHELLE, USA, DEPUTY CHIEF OF 
              STAFF FOR PERSONNEL, G-1, U.S. ARMY

    General Rochelle. Madam Chair, thank you very much. 
Representative McHugh, distinguished members of the 
subcommittee, thank you so much for the opportunity to discuss 
the status of the Army Medical Action Plan, in particular, the 
Warrior Transition Units.
    I echo, first of all, the Chief of Staff of the Army and 
the Secretary's call to the Army to ensure our warriors in 
transition and their families receive the care and support they 
require in environments most conducive to their healing. We 
have accomplished much, but we are not mission-accomplished in 
this area. Our system of caring for and supporting warriors in 
transition and their families is vastly superior to the 
previous system. We acknowledge, however, that it absolutely 
needs to work better.
    Over the past 18 months, the Army has made tremendous 
improvements in our ability to streamline the disability 
process, the Medical Evaluation Board process; and orders 
process are likewise streamlined, wasted time eliminated, and 
soldiers' rights preserved. However, improvements under the 
current statute still cannot fully address soldiers' concerns 
over quality of life, compensation, future income stream gaps, 
or family health care coverage for soldiers that are separated 
with medical disabilities.
    Our wounded warriors deserve to have a physical disability 
evaluation system, PDES, if you will, which is uncomplicated, 
easily understood, but above all, fair. The Army has developed 
strategies, programs, and initiatives to improve the physical 
disability evaluation process. Additionally, a training 
certification program is now a part of the physical disability 
evaluation system, ensuring caregivers, care managers, and 
administrative personnel involved in each area of warrior care 
are certified annually. These courses are now an annual 
certification requirement in their respective disciplines. We 
still have room to improve this process as well.
    We reduced the bureaucratic burdens on our wounded warriors 
through several initiatives, including casework forms 
reduction, increases in accessibility to lawyers, a physical 
disability evaluation handbook for wounded warriors and their 
families, a My MEB/My PEB--Medical Evaluation Board, Physical 
Evaluation Board--webpage on the Army Knowledge Online system 
for wounded warriors to track the status of their disability 
cases, and Department of Veterans Affairs counseling prior to 
discharge from the Army.
    Last, case processing results across the three PEBs were 
reviewed, analyzed, and periodic samples taken. With the help 
of the Concepts Analysis Agency, we now have greater 
consistency in Physical Evaluation Board review process.
    Manning the Warrior Transition Units is only second to 
manning those units preparing to deploy. Warrior Transition 
Units are filled with multicomponent soldiers to meet the needs 
of our total force. Human Resources Command, in conjunction 
with senior commanders, continue to fill these billets very 
quickly as the mission dictates, but not quickly enough, I will 
admit.
    Senior commanders, as part of the triad of leadership, are 
critical to this effort. They are currently assigning 
qualified--and I emphasize ``qualified''--permanent party cadre 
to meet mission needs while we focus on providing them 
backfills in the support.
    We are changing our permanent change of station reporting 
timelines for our WTUs to better meet the intent of keeping 
soldiers who are fit for duty quickly to their next assignment. 
This change is eliminating the delay and backlog of soldiers 
remaining in the Warrior Transition Units at many installations 
and so, very soon, all installations.
    The orders process has also been streamlined further by 
reducing and redirecting communications between the Human 
Resources Command directly with the respective Warrior 
Transition Unit. Previously, soldier notifications were passing 
through multiple layers of command in order to be executed. No 
more.
    In closing, Army dedication to our wounded warriors is 
unwavering--unwavering--and we are committed to continually 
seeking improvements in all aspects of wounded warrior care. We 
know we have come a long way, and we also know that we still 
have a long way to go. But we will not falter.
    Thank you for holding this hearing and thank you for your 
continued support, both of the United States Army, our wounded 
warriors, and families that we are all honored to serve.
    I look forward to your questions.
    [The joint prepared statement of General Rochelle, General 
Wilson, General Rubenstein, and General Cheek can be found in 
the Appendix on page 51.]
    Mrs. Davis. Thank you. Thank you, General.
    General Wilson.

 STATEMENT OF LT. GEN. ROBERT WILSON, USA, ASSISTANT CHIEF OF 
  STAFF FOR INSTALLATION MANAGEMENT AND COMMANDER, U.S. ARMY 
                INSTALLATION MANAGEMENT COMMAND

    General Wilson. Madam Chair, Congressman McHugh, 
distinguished members of the subcommittee. Thank you for the 
opportunity to discuss the Army Medical Action Plan and 
Installation Management Command's recent initiatives on Warrior 
in Transition units. We, alongside the Surgeon General and the 
Army G-1, are working hard to provide Warriors in Transition 
and their families the care and support they need in an 
environment most conducive to their healing process.
    I would like to highlight our transformed system of care 
and support. Additionally, I will present what we have done and 
what we are doing in facilities support.
    The Army has revised its support structure for the wounded. 
Warrior Transition Units, or WTUs, have replaced legacy Medical 
Holdover Units and Medical Retention Processing Units with a 
robust command and control structure, administrative support, 
and managed care.
    We currently have 35 Warrior Transition Units in modified 
existing facilities, consisting of barracks, soldier family 
assistance centers, and headquarters buildings. The needs of 
the Warriors in Transition and quality of the facilities are 
our primary considerations. We are building new 88 compliant 
facilities and locating them as close as possible to our 
medical treatment facilities to promote the healing process.
    Congress has supported Warriors in Transition by passing 
the fiscal year 2008 supplemental, which includes WTU projects 
at seven locations, valued at $138 million, as highlighted in 
our written statement and for the record. The Army is working 
with the Office of the Secretary of Defense to build complexes 
to meet WTU requirements in fiscal year 2009 and beyond.
    Our support plan includes new construction to build a 
permanent mix of Americans with Disabilities Act (ADA)-
compliant one-plus-one barracks and apartment-style facilities 
to best provide for our Warriors in Transition. Military 
construction for Warriors in Transition complexes are based on 
projected Army requirements and locations of the Army medical 
treatment facilities. This footprint considers the projected 
growths of our WTU populations, our Base Realignment and 
Closure (BRAC) realignments, and the Grow the Army initiatives.
    Our Warriors in Transition consist of a 50-50 active duty 
or active component and Reserve component soldiers. A dramatic 
increase in wounded ill and injured soldiers continues to 
challenge us in providing timely and adequate facilities for 
those deserving soldiers and their families. We are confident 
that our efforts will have a significant and lasting positive 
impact on the way we care for our soldiers.
    Warrior care is our highest priority, second only to the 
global war on terror. Our policy is to house Warriors in 
Transition in the best available facilities the Army can 
provide.
    While we have made significant progress over the last year, 
we realize that we have much work to do to ensure the Warriors 
in Transition receive the world-class care and support they 
deserve. Support of Congress is critical and appreciated. The 
Installation Management Command pledges in uniting efforts to 
those challenges and to ensure the success of this critical 
program. Our soldiers and their families deserve nothing less.
    Thank you very much.
    [The joint prepared statement of General Wilson, General 
Rochelle, General Rubenstein, and General Cheek can be found in 
the Appendix on page 51.]
    Mrs. Davis. Thank you.
    General Rubenstein.

 STATEMENT OF MAJ. GEN. DAVID RUBENSTEIN, USA, DEPUTY SURGEON 
               GENERAL OF THE UNITED STATES ARMY

    General Rubenstein. Madam Chair, Representative McHugh, 
distinguished members of the subcommittee, I am Major General 
David Rubenstein, Deputy Surgeon General for the Army; and on 
behalf of Lieutenant General Schoomaker, I want to thank you 
for hosting this meeting today.
    I am also very honored to represent the tens of thousands 
of dedicated men and women who provide health care, support, 
and supervision to our wounded, injured, and ill soldiers, our 
warriors, and their family members. In this regard, we have no 
higher priority, except for putting boots on the ground itself 
in Iraq and Afghanistan, and today we have 9,000 pair of 
medical boots on the ground in those two theaters of war.
    This morning, there was an article in USA Today which I 
think is a bit of a success story. In this article, the author 
talks about the fact that soldiers can wait 2 to 12 months to 
be transitioned out of a Warrior Transition Unit. I think that 
is a good news story. We are giving our warriors the time they 
need to heal--the time they need to heal and return as 
productive citizens of their community and the time they need 
to heal to return as productive soldiers to their units.
    We have soldiers in Iraq fighting the war on a prosthetic 
leg because we gave them the time they needed to heal. We have 
soldiers jumping out of airplanes on a prosthetic leg because 
we gave them the time they needed to heal.
    We have a soldier in graduate school today. When he 
finishes, he will go to West Point in uniform as an active duty 
instructor to new cadets. He is blind as a result of injuries 
in Iraq. He is in graduate school because we gave him the time 
he needs to heal.
    Someone said we are a step slow. I have no argument with 
that complaint. Some say that we are not keeping up with the 
explosive growth of the population in our WTUs. I have no 
argument with that as well. We are doing phenomenal work at a 
very, very difficult mission, which is to keep pace with the 
growth of our WTUs, to ensure that we have trained and 
qualified cadre, to ensure that we have trained and qualified 
health care providers to provide the very best in health care, 
support, and supervision.
    It is not unlike a story that I will share with you related 
to my deployment to Bosnia. When I left to go to Bosnia, I left 
behind a wife and two school-aged kids. The seven months that I 
was gone saw our son grow seven inches in those seven months. 
No matter how hard my wife tried, the shoes were always one 
size too small and the pants were always one size too short. 
But she never gave up.
    I believe in my heart that you know that we will not give 
up. We are working diligently at executing an outstanding Army 
Medical Action Plan, but there are challenges in its execution, 
and I am very excited to spend some time today talking about 
our responses to those shortfalls and our responses to 
improving a system that is so good at supporting our warriors.
    Thank you very much. And thank you all for your openness. I 
acknowledge, ma'am, that your staffers have been very open with 
all their findings, sharing them with myself, with General 
Cheek, with our staff, and our Surgeon General; and that has 
helped us between our committee testimonies to continue to work 
on the findings that you have and the findings that we 
ourselves come up with.
    Thank you very much.
    [The joint prepared statement of General Rubenstein, 
General Rochelle, General Wilson, and General Cheek can be 
found in the Appendix on page 51.]
    Mrs. Davis. Thank you. We appreciate your support on our 
trip to Fort Drum as well.
    General Cheek.

  STATEMENT OF BRIG. GEN. GARY CHEEK, USA, ASSISTANT SURGEON 
GENERAL FOR WARRIOR CARE AND TRANSITION, AND DIRECTOR, WARRIOR 
CARE AND TRANSITION OFFICE, OFFICE OF THE CHIEF OF STAFF OF THE 
                              ARMY

    General Cheek. Madam Chair, Representative McHugh, and 
distinguished members of the committee, thank you for the 
opportunity to speak with you today about our Warrior 
Transition Units and the care that we provide to our wounded, 
ill, and injured soldiers and their families. I would also like 
to thank Congress for the leadership and support you provide to 
the Army in the development and execution of this program.
    After brigade command in Afghanistan, and then service on 
both the Joint and Army staffs, my selection as the Director 
for Warrior Care and Transition truly caught me by surprise. 
But I quickly told my assignment officer it would be my honor 
to do that job. And here's why.
    Every senior leader in the Army has some kind of direct and 
personal experience with our wounded, ill, and injured soldiers 
and their families. Mine is personified in Lieutenant Colonel 
Greg Gadson, his wife Kim, and their children Gabriella and 
Jaelen. You know Greg Gadson as the wounded soldier who 
inspired the New York Giants to win the Super Bowl, but I know 
him from our service in combat together--a magnificent leader, 
trusted confidante, and a loyal friend. He and his family 
motivate me to do all I can for our wounded, ill, and injured 
soldiers, all volunteers to our Nation in a time of war.
    When I assumed my duties from Brigadier General Mike Tucker 
on the 1st of May, he made it clear that this effort was a work 
in progress. But from my vantage point, the accomplishments of 
the Army and the leadership of Mike Tucker were remarkable. In 
contrast to what the Army had in place in February of 2007, not 
just Walter Reed, but across the Army, we made enormous 
progress: superb facilities, traditional military structure, 
dedicated cadre and medical care providers, centralized family 
assistance and appropriate prioritization, all underpinned by a 
deep care for the well-being of our soldiers and their 
families.
    Now, certainly this program has been imperfect and 
execution uneven, but I believe we are well on our way to 
institutionalizing this as an enduring Army mission. We will 
continue to refine and improve the program, and to that end 
these are my marching orders as we move ahead:
    First is to understand the dramatic growth in Warrior 
Transition Unit population and become proactive in meeting 
future demands.
    Next, empower commanders with more options for managing our 
wounded, ill, and injured soldiers; refine our entry and exit 
criteria to better focus the Warrior Transition Units on those 
who truly require complex managed care; and then address the 
current issues that limit us from optimal performance and 
soldier satisfaction, such as maintaining our cadre strength, 
managing high-risk soldiers, streamlining our evaluation boards 
and also our assignment processes.
    Again, let me say thank you for your leadership and support 
to this extremely important Army program. When I tell you I am 
committed to its enduring success, it is because of soldiers 
like Greg Gadson. During my promotion to General Officer, he 
stood on his prosthetic legs and administered my oath of 
office--a personal reminder to me to make this program the best 
in the world. And I am greatly honored to be a part of it.
    Thank you.
    [The joint prepared statement of General Cheek, General 
Rochelle, General Wilson, and General Rubenstein can be found 
in the Appendix on page 51.]
    Mrs. Davis. Thank you.
    Thank you very much to all of you.
    Mrs. Davis. Perhaps we will start with resources and why it 
has been very difficult to properly resource the Warrior 
Transition Units. I wonder if you can take us through some of 
the bureaucratic constraints and how that has borne itself out 
not just among the military population, but also in recruiting 
civilians to be part of this effort.
    Could you help us out with that?
    Part of our purpose here obviously is to understand it and 
see is there a way we can help. Is there something that can be 
done that will really make it much easier to go through what 
sometimes is a very painful process of releasing people from 
one duty or another? Where have the problems been? What have 
you done since the spring to correct some of the issues that 
have come to light that perhaps were not anticipated to the 
extent that they were?
    General Rochelle. Allow me to start if I may, Madam Chair.
    First of all, because I think the most significant resource 
that concerns the subcommittee is people--and make no mistake 
about it, the Army is stretched; our chief has testified to 
that, the Secretary of the Army has also testified to the fact 
that we are stretched--that said, I want to reiterate that this 
is the number one priority for people resources right behind 
the war on terror and resourcing our deployers. We must field 
units fully manned, best equipped, and best led. That goes 
without amplification.
    Your question is on the bureaucracy, primarily, the 
bureaucracy that we, one--I will state, we, first of all, a bit 
overwhelmed ourselves with the execution order--healing 
warriors. We overwhelmed ourselves. Having revisited the prior 
hearings on this subject, the four prior hearings on this 
subject, it is clear to me that this committee perhaps foresaw 
that a little better than we anticipated it.
    But our heart was in the right place and remains in the 
right place, providing the very best care for our wounded 
warriors, those who have borne the battle.
    But to the bureaucracy, we didn't anticipate that at the 
lowest level, the installation level, the execution order would 
be interpreted by the personnel clerk at Fort X and Fort Y as 
being no different than an order to reassign a soldier who is 
leaving a unit that is simply not deploying or a unit that is 
training at home station.
    In other words, typically an order will be issued, 
assignment instructions will be issued, and the administrative 
individuals at a lower installation level would look at 90 
days--30 days for leave, 90 days to prepare to transition that 
soldier out. We didn't anticipate that. That wasn't the intent. 
When it was discovered, we jumped on it.
    To the larger issue, the only way to adequately resource a 
flexibly growing organization--and that is what our Warrior 
Transition Units are--we knew that going in is at the local 
level first. That was articulated, first, in April of 2008 by 
General Cody; it has been rearticulated in Fragmentary Order 
No. 3, and I think we will--in fact, I am confident we will see 
a lot better execution at the lowest level and at the highest 
level.
    Mrs. Davis. You mentioned the 90 days. How has that been 
shortened?
    General Rochelle. Several ways.
    First of all, very clear standards. Five days from the 
point at which an individual is identified to Human Resources 
Command as Return to Duty--healthy, fit, returnable to duty; 5 
days for Human Resources Command to publish the order, 5 
additional days--excuse me, not publish the order; issue the 
request for assignment and the request for orders, the orders 
are cut at the local installation level--5 additional days for 
that to occur; and then 60 days for an individual who is 
leaving the installation for the report date.
    So 60 days from the date the order is cut, if you are 
leaving the installation, going to another installation, that 
is the report date. If you are staying on the installation, it 
is 10 days.
    Mrs. Davis. Can we look to some figures as of June and 
beyond that demonstrate that that has changed significantly?
    General Rochelle. It is too early, Madam Chairman, but it 
will not be too early by the 1st of October. I welcome the 
opportunity to share that data with you, yes.
    I was going to mention something about the data we are 
keeping now, but it is irrelevant.
    It is too early now, but by the 1st of October we will have 
a mountain of data that we will be happy to share with the 
committee.
    Mrs. Davis. Thank you, General.
    Perhaps later in the discussion we will talk a little bit 
about outreach to civilians also, who might be very, very 
helpful in welcoming this opportunity to serve in this way.
    Mr. McHugh.
    Mr. McHugh. Thank you, Madam Chair. To repeat myself, I 
said during my opening remarks that I found no reason to 
question anyone's motivation here. Certainly, at the 
installation level these people are working as hard as they 
possibly can, oftentimes outside areas of training and 
expertise to do what they feel is necessary.
    That having been said, in many ways this challenge isn't 
being met, and I find the current circumstances unacceptable. 
Do you gentlemen agree with that? Anybody disagree with that?
    So what I think frustrates us, what frustrates me, as we 
talk about the challenges, we talk about the shortfalls we have 
repeatedly heard is that while we have taken care of that 
problem, installation managers or installation commanders have 
been given the authority to take whatever personnel they need. 
We have done this.
    The next thing, while that sounds good, there still seems 
to be a disconnect between what is being told as to the 
resolution and what is being experienced on the ground. Let's 
just use the growth as an example.
    You did have huge, huge growth. From June of 2007, this 
program had 6,000 in the population in the various WTUs. By 
June of this year, a year later, it had doubled to 12,000; and 
it is projected by spring or late winter of next year to grow 
to another 20,000. The original program in the implementation 
initiative was intended to have a 90-day review period by which 
this growth could be projected and thereby accommodated. Yet, 
for whatever reason, that hasn't worked.
    What I am trying to understand is why have we not been able 
to catch up to this growth in terms of the personnel? Is it 
that the 90-day review period, the 90-day look, didn't occur; 
or that it did occur and we do see the growth, we just can't 
keep up with it? Where is the shortfall here? Is it an 
inability for the model to accurately project where these new 
warriors are going to come from and in what numbers, or is it 
an inability to react, to find the personnel to put on to reach 
our required ratios?
    General Rubenstein. I will start off, if I may, and pass 
off as required.
    We have thousands, literally thousands of civilian open 
hiring actions that are on the books with valid job 
descriptions that we have put out, looking for hires, looking 
for civilians to step up and take those jobs. We have filled 
thousands as well. Some align toward the WTUs, others aligned 
to the other parts of the medical, surgical, and health care 
mission. So it is not a matter of not putting the actions out 
there and looking for civilian hires.
    We have also transferred a huge number of military to this 
mission, both in the health care arena, which is my area, and 
in the more generic cadre--squad leaders, platoon leaders, and 
the like.
    Mr. McHugh. I want to interrupt to ask a question there 
because what we have heard as we talk about the civilian hire 
process is that it is structured currently in a way that is 
very frustrating to those at the WTUs. By that I mean, they are 
certainly recruited at low Grade Scale (GS) levels. The level 
may not be where it should be to be competitive in the civilian 
sector to bring in those folks you are trying to hire; and even 
when you get them, because the GS is so low, they, within a 
year or so, go under a higher GS and you lose them all over 
again.
    Have you experienced that, maybe plussing up and hiring at 
a higher GS level?
    General Rubenstein. Actually, we have gotten rid of the GS 
system altogether.
    Mr. McHugh. I am archaic. But you understand what I am 
saying?
    General Rubenstein. We have the flexibility to offer pay 
within a band. We are very competitive. In fact, in some 
communities we are too competitive for the higher actions that 
we are applying.
    Mr. McHugh. Why are you not able to hire these individuals 
if you are competitive? Because what you just told me is you 
are not getting them.
    General Rubenstein. We are offering recruiting bonuses, we 
are offering relocation bonuses. We are going overboard to make 
this financially lucrative, certainly not to be paying less 
than the local community. One thing that this committee can do 
is help us with the direct hire authority. This is a year-to-
year program.
    I was mowing the yard in Augusta, Georgia, as Deputy 
Commander of the Medical Center, and a new family had moved in 
next door. The wife was a nurse. I asked her, as we were 
talking, asked her to come apply for Eisenhower Medical Center. 
I talked to her a couple of months later, said, I haven't seen 
you around the hospital. She said, I didn't get a job. They 
didn't hire me fast enough, and I needed a job and I couldn't 
wait for that system to make it through.
    The direct hire authority allows us to hire very quickly, 
but it is a year-to-year program. And we can certainly use that 
as a permanent benefit, permanent right for us to go out and 
hire.
    To the question of pay, I do not believe that we are paying 
less than the civilian sector, and in some communities we are 
paying more and we are taking from the civilian sector.
    Mr. McHugh. I am not here to argue with you, but I am 
telling you that is not what we have been told. We have been 
told by folks who really ought to be in a position to know that 
that is a challenge, and the hiring bands that have been 
assigned to these hires, in fact, encourage folks to leave at a 
rather short order.
    General Rubenstein. We can't compete with a community that 
offers a nurse 40 hours of pay for two 12-hour shifts at a 
downtown emergency room.
    Mr. McHugh. You told me you were overly competitive, 
General.
    General Rubenstein. I can't compete with that kind of 
offer.
    But a medical surge nurse, the staff we are looking to 
staff our WTUs, I don't believe we are paying less than the 
local community.
    Now, nurses are a shortage across our country, and in some 
communities, as we are competing against health care systems 
that are out there in a for-profit motive, we do have 
difficulty. I don't deny that.
    General Rochelle. Allow me, if I may, sir, to amplify.
    Two points: You asked a question about agility. I will tell 
you that heretofore we anticipated that our system was a bit 
more agile in responding to the changes in structure 
requirements at installation by installation by installation 
than it really has been.
    In my comment I mentioned--in my earlier comment, I 
mentioned that the only way to respond to that is the way that 
that Fragmentary Order No. 3 calls us to respond to it, locally 
first and then we backfill from the higher level. If I may, to 
the civilian personnel issue. I want to amplify the fact, 
having spent a little bit of time trying to recruit nurses and 
testifying before this committee in that capacity, that it is a 
national crisis. I have said that before. When you see 
governors, if you will, poaching across State lines to hire 
nurses from a neighboring State because we simply can't grow 
enough and our Nation isn't growing enough, that becomes 
problematic.
    The Army is seriously exploring ways in which we can grow 
our own. I am speaking of a United States Army Nursing School 
as an example.
    Mr. McHugh. I certainly, Madam Chair, will yield back in a 
second.
    I understand the nursing shortage. There is a challenge on 
these ratios that extend beyond nursing, however.
    General Rubenstein, I don't mean to engage you in a debate 
per se, but my frustration here is what kind of things do we 
need as a Congress and do you need as a command structure to do 
to meet that ongoing challenge? That really is the point. What 
some of the installation folks are telling us is that the 
hiring levels--and they didn't mention specifically, I did not 
just mention, I should say, nurses, but listed it in a broader 
array. But what can we do to try to fix that?
    I want to come back when we can, Madam Chair. I mean, the 
disconnect between some of the fragmentary orders and such is 
frustrating as well. On semipermanent buildings, for example, 
there is a $750,000 cap on the bidding of those, and supposedly 
you have got a frag order that has listed that that has never 
been implemented. In the meantime, installations are still 
trying to deal with that $750,000 cap. When it is recognized it 
is a problem, the implementation or the waiver has been issued, 
but it has never been exercised.
    So we have got some problems there.
    Mrs. Davis. Thank you.
    I think there does seem to be some confusion because a 
number of individuals that are very engaged in the system and 
on the ground working with it, I didn't get the sense that they 
saw that the GS system was no longer something that was at play 
here, and that you had some of the options that you have. Maybe 
we need to really understand that better.
    We will come back to that, General. Thank you very much.
    Mrs. Boyda.
    Mrs. Boyda. Thank you, Madam Chairwoman, for calling this. 
It is something that we obviously hear about a great deal.
    I have the opportunity to represent Fort Riley and Fort 
Leavenworth. Of course, Fort Riley is where we have the WTU. I 
applaud. And I tell people when they ask a lot about Walter 
Reed, how are things going? For several months I said, ``Wow, I 
think we have really got a handle on this,'' and we are out 
there working on behalf of these wounded soldiers. People were 
very happy to hear that.
    At this point, I would say that I hear from constituents or 
just different people from time to time about a problem every 
now and then, and then you get to a point where you recognize 
that there is a problem and something has to be done.
    I would, with all due respect, again say that there seems 
to me to be a disconnect, and I don't doubt at all your 
commitment and what is in your heart to do this, but I would 
offer that there seems to be a real disconnect about what is 
going on and perhaps your vision of what is going on and what 
is happening on the ground. There seems to be more of a 
disconnect than I am comfortable with.
    I think--hopefully, we would like to make sure that that is 
connected, that that reality is connected, and we start doing 
some things about what is going on.
    I think we are going to have time for a couple of rounds. 
In the interest of time, I have several questions.
    But when just the whole thing about we were going from 
6,000 to 12,000, now it is projected to 20,000--if you could 
answer the questions possibly as quickly as you can--but did we 
anticipate that? What happened with that?
    I know the whole 90-day thing just was a good idea, but it 
didn't really come to pass the way we wanted. But how did we go 
from 6 to 12, and where did that happen?
    General Cheek. Ma'am, I am probably the best one to answer 
that.
    One of the key reasons we saw such a dramatic growth in our 
Warrior Transition Units is, we put out a directive for our 
units to move soldiers that were in their Medical Evaluation 
Board process into WTUs, or at least allowed deploying 
commanders to do that. That, of course, had some benefit to 
them in helping them.
    Mrs. Boyda. Wasn't that originally--did we project that 
doubling then? It was my understanding that that was what we 
had projected to do in the first place.
    General Cheek. We did project growth, and in fact what we 
built our original structure for was about 8,000 growth in 
February of this year, which turned out to be pretty accurate.
    But it continued to grow, which we also forecasted. As we 
have said, we just were not agile enough to respond to that.
    As we look back on that, one of the things that we 
recognize was that we had not sufficiently empowered our 
commanders and that triad of leadership on the installations 
with enough options on how they could best manage this 
population. So our recent fragmentary order really gives them 
more discretion and some options in terms of who they bring 
into the Warrior Transition Units, as well as some 
opportunities for soldiers who may be just almost completing 
their care and ready to return to duty, to allow them to go 
back to their unit.
    So we are trying to give more options to the commanders to 
manage that population better and then also some greater 
latitude for them in terms of assigning cadre members. We have 
made a lot of progress.
    Some of the things we used like borrowed military manpower 
had a lot of second-order effects for special duty pay and 
other things that just did not work out well for us. So we have 
learned a lot of lessons over the past six months.
    As we look forward from here, we are going to build a 
structure which we will not require a formal structure to build 
cadre. We are going to build cadre based on the size of the 
population. So that is what we are going for. We will build 
structure for 16,000 by January; and for 12,000, we will have 
the official structure built with our new ratios that were 
developed by our manpower agencies. So we have a lot of 
changes.
    Mrs. Boyda. One of the things I have heard about is 
administrative levels are coming in at the GS-4 and -5, and it 
is just unacceptable to ask anybody to try to do that sort of 
thing. So at these administrative levels are nurses and some of 
the--more medical providers; but I think, again, from what we 
are hearing, there is a real disconnect on just keeping people 
on the ground who keep these things going. They are coming in 
at GS-5, they are temporary; there are all kinds of problems 
associated with it. We need to know what we need to do to get 
that to be something that is just going to work a whole lot 
better.
    One of the things that our staff has heard about--this is 
not a personal experience of mine--for warriors that are in 
transition that now have gone through, they are ready to serve, 
they want to go back into the cadre of the WTU, they are ready 
to do that, and they are told--let me get the exact words--
Human Resources Command said that the Warrior Transition Unit 
was, ``over strength'' according to their personnel 
authorization document. That was the number one reason for not 
being able to go right back into a place where they could help 
the fastest.
    Again, I am assuming we are going to be taking care of 
that.
    General Cheek. Yes, ma'am. We have changed that. So we will 
allow those soldiers to stay, and the commanders will have some 
discretion to move them into cadre.
    Mrs. Boyda. I would be happy to yield until my next round 
of questions. Thank you very much.
    Mrs. Davis. Thank you.
    Mr. Jones.
    Mr. Jones. Madam Chair, thank you very much.
    I sit here really in great appreciation, truthfully, for 
the task that you have been assigned. And I know that with 
anything, when you have numbers, it is just very difficult to 
put it together, especially when we have these absolutely 
wonderful young men and women who have served this Nation, and 
even as they recover from their wounds, they still want to 
give. They are God's gift, quite frankly. They are very 
special.
    I am not going to be--I guess what I wanted to bring 
forward, knowing that you are in the process of trying to make 
this program an efficient, a beneficial program that would be 
in place, something that has bothered me for the last four or 
five years--and I am like anybody on this committee, I go to 
Walter Reed, I go to Bethesda, and I see those who are the 
severely wounded; they will not go back to any unit, their life 
is--from the standpoint of serving this Nation in uniform, is 
over.
    What kind of program--General Rubenstein, I guess maybe I 
should ask you, or General Cheek, what type of program is the 
Army working on to have a continued contact, if you will, with 
that traumatic brain injury soldier, or Post-Traumatic Stress 
Disorder (PTSD), once they get past this part of their service 
and they are in the process of leaving the military? Are you 
developing a program so that when all of us are retired and the 
people that replace you, that replace us, will know where that 
soldier is in 10, 15 years?
    General Cheek. Sir, this program really belongs to General 
Rochelle. But we have our Army Wounded Warrior Program, which 
is designed for our most severely wounded and injured. For each 
of those soldiers, we maintain a case manager, if you will, who 
maintains contact with that soldier and his family to help them 
with any problems that they have.
    I don't know, General Rochelle, if you want to add any 
more.
    General Rochelle. I would be happy to.
    The program we are discussing is the Army Wounded Warrior 
Program, and it is designed, and was designed in 2004, for our 
most severely wounded to ensure that we were giving them the 
special treatment, the special focused care.
    Quite frankly, I would tell the committee that it is the 
precursor to the Wounded Warrior--excuse me, the precursor to 
the Warrior Transition Unit. It was built on that model, and it 
is a commitment for life for those severely wounded soldiers.
    The second thing and final thing I would like to add is 
that for directed care, every single one of those soldiers, 
over 3,000 today, has--every single one has a case manager who 
is assigned to him or her that follows them throughout their 
recovery, follows them throughout their lifetime for any need 
whatsoever they may have.
    The last point is, twice in the last two years we have 
hosted symposiums for our wounded warriors, inviting them to 
come back at the Army's expense; and there have been 
individuals who have come who could not represent themselves. 
They were physically present but they were represented by their 
loved ones.
    We go through four days. This recently happened in June, 
four days in Indianapolis; I might add, four days of taking 
their issues and then bringing those issues back inside the 
Army to incorporate them into the overall family action plan 
that Lieutenant General Wilson oversees on behalf of the Vice 
Chief of Staff.
    So I wish to assure the committee that the Army wounded 
warriors, our most severely wounded, and who deserve, 
rightfully so, our lifetime of commitment, are in fact 
receiving it.
    General Rubenstein. I would also like to point out, in 
addition to the Army Wounded Warrior Program, the Office of the 
Surgeon General has placed a colonel into the office of Dr. Jim 
Peake, the Secretary of Veterans Affairs; and he likewise has 
put an equal-rank civilian into the Office of the Surgeon 
General (OTSG) so we can go further down the road of building 
bridges and connections between the Department of Veterans 
Affairs (DVA) and the health services of the DVA and the Army 
to supplemental the Army Wounded Warrior Program (AW2) that 
General Rochelle has just described.
    Mr. Jones. Thank you, Madam Chair.
    Mrs. Davis. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. I want to thank you for holding this important 
hearing and for all the hard work you have done as we have 
become so aware of the great challenges this presents. We are 
hearing the questions and challenges we have about projecting 
the need that you might have to address and provide for, and we 
all know, and certainly in your testimony we have heard, how 
difficult that is.
    But as we face a situation in which potentially, one, we 
will have a large influx into the system as the surge soldiers 
come home, if we do eventually engage in a timetable for the 
redeployment of our soldiers, so again you will be bringing 
back larger numbers at once--and particularly where the issue 
is PTSD, where you might not have to really deal with it until 
the soldiers do come home--can you envision what you would do 
in a situation where you simply become overwhelmed by the 
demand?
    Do you look to other sources for help? How do you plan for 
that so that as you anticipate it you know what you are going 
to do, whether it is from within the service or looking 
outside?
    I ask that to anyone of you who wants to answer.
    General Rubenstein. I will start the answer on that.
    To the extent that we can, we certainly want to keep our 
wounded warriors--in the example you have given, the 
psychologically wounded warriors, as well as our physically 
wounded warriors--but keep them in our system to put our arms 
around them and provide care.
    We are doing a very good job at keeping as many as 
possible. We do occasionally send our warriors down to 
community health care providers and bring them back where we 
can provide all of the care or the specific piece of care in 
our facilities.
    Where we can't and where we may not be able to meet the 
needs if the numbers are overwhelming, we fall to our civilian 
network providers, our partners in the TRICARE contracts with 
our three partners--South, East, and North--and use them to 
supplemental the care that we cannot provide.
    Ms. Tsongas. And is this a plan you have in place, or is it 
reacting to any given moment?
    General Rubenstein. It is in execution as we speak today.
    In October at Fort Hood we sent about 350 of our warriors 
downtown--Killeen, Harker Heights, Copperas Cove--to receive 
health care. Those same soldiers, 6 months later in April of 
this year, had 1,900 separate appointments downtown. So we 
already use the system that is in place.
    General Rochelle. May I add, Madam Tsongas, the two things 
you hinted at in your question was being proactive in looking 
at both the deployment of individual elements of Army units, 
brigades, and support elements and being proactive for those 
that are redeploying as well. That, we have come to learn, is 
one of our misconnects, disconnects at the senior levels of the 
Army, and we are going to do better at that.
    We already have a very reliable, very reliable metric that 
proves itself time and again as the number of soldiers that are 
being sent to the Warrior Transition Unit prior to a brigade 
deploy. Our effort under Fragmentary Order (FRAGO) 3 is to 
implement that and get in front of it.
    What I will add, though, is that we are seeing such a 
disparate statistical behavior pattern for redeploying brigades 
that we are still trying to arrive at a reliable one standard 
or two standard deviation, if you will, prediction for 
redeploying brigades. We are not quite there yet. The number is 
too erratic--the history is too erratic, excuse me. But that is 
our effort, that is our commitment.
    Ms. Tsongas. It seems to be an important one, because a lot 
of this problem has come about for failure to anticipate and 
really think long term and understand what the alternatives 
would be, sort of the worst case, start to realize it.
    General Cheek. And, ma'am, we are doing that; we are taking 
the redeploying brigades. We know, for example, at Fort 
Campbell between November and January that they will have four 
brigades and another brigade deploying. So we can see already a 
need to plus up their cadre and prepare potentially, as you 
mentioned, for increased mental health issues from those 
redeploying units. So we are moving in that direction.
    Mrs. Davis. Dr. Snyder.
    Dr. Snyder. Thank you, Madam Chair. And I want to thank you 
Mrs. Davis and Mr. McHugh for not just this hearing, because 
this issue is one that you all have had an interest in for some 
time, and I think it is in the best spirit of congressional 
oversight that this hearing be conducted. And I also want to 
acknowledge--perhaps you did during your earlier statements--
the work that Dave Kildee and Jeanette James, our staff, have 
done. They really have put a lot of time in, and I think it has 
been helpful to you all and it has certainly been helpful to 
us.
    I also appreciate the four of you. It is never fun to come 
before this committee having to acknowledge that there are 
problems. I would say it is actually less fun to come before 
this committee when everyone knows there are problems but you, 
and you can't acknowledge it. So I think you are ahead of the 
game here today by acknowledging that you have work to do; and 
I appreciate it.
    I need a tutorial here, because I don't understand. We have 
the Wounded Warriors program, to which Mr. Jones referred, of 
about 3,000 personnel, correct? And that is not a group that we 
are discussing today. Is that a fair statement? What we are 
talking about is a separate program, the Warriors in Transition 
program, which we think is probably 12,300, or somewhere in 
that range.
    Of those 12,300, General Cheek, maybe you are the person to 
sort this out for me the best, and we can either take it in 
totality, or we can take it as a hypothetical, Fort Somewhere, 
and take 500 or something.
    How many of those are Iraq or Afghan War veterans?
    General Cheek. Sir, I think about 70 percent of our 
population has been deployed to Iraq or Afghan.
    Dr. Snyder. Seventy percent of the population?
    General Cheek. Yes, sir. And then probably about half the 
population are actually in the Warrior Transition Units for 
some deployment-related condition.
    And as we continue to back off of that, about one-third 
were evacuated from theater, and currently about 12 or 13 
percent were what we would call ``wounded in action'' in terms 
of a Purple Heart recipient. So that is sort of how that 
population breaks out.
    Dr. Snyder. You made mention that you have--one of the 
units is--about 300 are considered in a waiting list; is that 
correct? Is that your testimony?
    General Cheek. Well, I know, sir, when your staff visited 
Fort Hood, they were told there was a list of soldiers waiting 
to enter the WTU.
    Dr. Snyder. I don't understand that. What does it mean to 
be on a waiting list? This seems to be contrary to the whole 
point of this.
    The whole point was to create a program which would say 
from day one you will have somebody on top of your problems, 
not to say, By the way, you are number 273; it takes about 6 
weeks to get there before we will even begin to get started on 
your problem.
    What does this concept of a waiting list come out to be in 
a Warrior Transition Unit?
    General Cheek. Sir, I probably owe you a better answer, but 
let me give you my best understanding of that.
    When we gave guidance to commanders to be able to move 
their Medical Evaluation Board soldiers to the WTUs, I think 
that is principally where these waiting lists come from. So 
these are soldiers that have a permanent profile that needs 
completion of an evaluation to determine fitness to remain in 
the Army or not. In the past, we left those soldiers in their 
unit and they didn't go to the Warrior Transition Unit. So I 
think that is principally where that list lies.
    If you take a soldier, just as an example, who is very 
seriously injured, we are going to put him in the Warrior 
Transition Unit. He is not going to be left on a waiting list.
    General Rubenstein. Sir, to put a face on that example.
    I don't know, and I don't know that we have been able to 
duplicate this 311, as an example, but a soldier who is lifting 
weights and blows out his shoulder and needs to be evaluated, 
whether he is going to be able to stay in the Army or not, and 
his unit commander says, I want to nominate this soldier to go 
to the WTU; that is the kind of soldier--if there is a soldier 
who has not come over, that is the kind of soldier who has not 
come over, not a soldier who has been wounded in combat and 
needs the services and the support structure that is available 
in a WTU--if that makes any sense.
    Dr. Snyder. It does. And it gets to part of what I want to 
talk about.
    I think the original concept of this was that perhaps we 
would not try to differentiate between those that got, 
severely, a gunshot wound in a training accident in Kansas 
versus hurt overseas; that we would say they have got medical 
problems that need to be dealt with.
    But when it gets so inclusive that we are now having 
problems keeping up, I want to hear you, General Cheek, talk 
about what are the categories of these 12,000-plus that we have 
now? You referred to some as being high risk.
    General Cheek. Yes, sir.
    Dr. Snyder. What are the other categories that you have 
delineated amongst those 12,000-plus people?
    General Cheek. We can categorize them in any number of 
ways. I think what I would point out is----
    Dr. Snyder. Are you saying that these are not formal 
categories? I had the impression that somewhere there is a list 
of, we have this number of people that we now label as high 
risk, and I could hit a computer button and pull up that list 
and see how they are doing.
    Is this or is this not a formal classification?
    General Cheek. The high risk, yes, sir.
    The waiting list that is----
    Dr. Snyder. That is the more formal. I moved on from that. 
But the way you see it--so you have some that are designated as 
high risk and you assign them additional resources. Of those 
others, are there other distinctions between them?
    General Cheek. I don't know that I know enough to give you 
the answer on the other categories. But for the high risk, yes, 
we have a very formal process for every single soldier in the 
Warrior Transition Units where his leadership, his squad 
leader, and his medical managers all take a look at this entire 
soldier--not just his medical condition, but his personal life 
and other issues that he may have--and they will make an 
assessment based on all of those factors. And these were 
formalized in a directive to the field that was put out in 
February of this year. So we will go through that and then we 
will rate that soldier as high risk.
    Every one of those soldiers is an individual, and all of 
them are high risk for a unique reason. And so the strategy for 
coping with that is unique as well. Some might be assigned a 
buddy. Some might be limited in terms of how much liberty they 
have to go from place to place. Some might have increased 
contact with a squad leader, or additional counseling, for 
example, if it is a problem with their family life, et cetera. 
So all of this is very personalized.
    One of the great features of this--and this, as usual, was 
an outgrowth of what we had at Fort Knox when we had a suicide 
there or an accidental death by taking too much medication--we 
completely relooked our policies. And even while we have had a 
doubling in the size of our Warrior Transition Unit population, 
we have actually cut in half the number of suicides and 
accidental deaths.
    So we have had some good success with this program, even 
though 311 at one installation will sound like a large number, 
but it is actually helping us take care of these soldiers.
    Dr. Snyder. Thank you, Madam Chair.
    Mrs. Davis. Thank you, Dr. Snyder.
    I think we would certainly all agree that anyone who isn't 
in a critical status absolutely needs to be there. But I am 
also a little confused on your response, because it seems like 
the people who have been already cleared to be part of the WTU 
are still on the waiting list. And is there kind of a 
disconnect between their unit, their commanders, and the needs 
of the WTU in terms of whether or not they actually can go? 
That they have the space for them?
    Because it sounds like in many cases it is not a matter of 
space anymore, it is not a matter of individuals. Some of them, 
obviously, are way over capacity.
    General Rubenstein. To help answer the question and to 
address also a bit about the categorization, it is irrelevant 
to us if the patient was wounded by a gunshot wound in Iraq, by 
an improvised explosive device (IED) in Afghanistan, a car 
wreck in Lampasas, Texas, on the way to Fort Hood, or a 
parachute accident at Fort Bragg having never deployed in his 
or her life.
    What is important to us is the complexity of care that that 
young man or woman requires to return to duty or to return to 
his or her community as a civilian. And so I am a little 
concerned about the concept of a waiting list.
    Our focus is getting into the WTU those patients, those 
soldiers who have complex medical needs that require the 
supervision and the support that is not available in their 
units. And it is okay if a soldier who has a bad shoulder and 
is being boarded, that is a soldier who can be supervised by 
his unit; and if we need to get them into the WTU, we certainly 
will. But that is not necessarily a requirement for every 
soldier going through a boarded process.
    Mrs. Davis. So there are some soldiers who aren't 
essentially cleared to even go into the WTU, because their 
problem can be dealt with locally?
    General Rubenstein. That is correct, ma'am, yes.
    Mrs. Davis. I wanted to just go, General Cheek, to an issue 
you raised.
    You said that borrowed military manpower did not work well. 
And I know that when our staffs visited, they came to the same 
conclusion in talking and working with everyone. But I wonder 
how you reconcile that fact with General Rochelle's assertion 
that Warrior Transition Unit personnel shortages need to be 
handled locally.
    What is the difference in practical terms from being 
borrowed versus local?
    General Cheek. Yes, ma'am.
    When a soldier is borrowed for duties elsewhere, he is 
still assigned to that unit. The problem this created was, we 
have special duty pay for those noncommissioned officers that 
are squad leaders and platoon sergeants. By leaving them 
assigned to their old unit, by our own regulations--and 
actually it is not within the authority to pay them that 
special duty pay.
    So what we have told our commanders is, stop using this 
technique for bolstering the cadre. Assign the soldier--and 
they can do that on the installation. Assign the soldier to 
that unit. That makes them fully eligible for that special duty 
pay once they have completed the training requirements.
    And so in many ways there is not a big difference, but we 
want to have a more formal process and eliminate the use of 
borrowed military manpower because of the problems that it 
created.
    Mrs. Davis. Is there a disconnect, though, here?
    I think you are talking about trying to handle it locally; 
and yet, when we talk about other needs that the military has, 
we are nationwide. So how does that relate?
    General Rochelle. Make no mistake about it, Madam Chair, it 
does stretch us, but there is not a disconnect. There is not a 
disconnect, either, in terms of our ability to pay the special 
duty assignment pay, which we have recently increased to $375 
for squad leaders and platoon sergeants. And we managed to work 
with the Office of the Secretary of Defense, I am pleased to 
say, to find an adequate work-around that allows us to pay 
every soldier assigned or in a designated military overstrength 
position in support of our Warrior Transition Units. That is 
point number one.
    Is there a disconnect? You are asking a much larger 
question. Will we be able to sustain this level of manning? We 
will sustain it, because the Army's leadership has said this is 
our number one priority immediately behind resourcing our 
deploying formations. We will sustain it.
    Mrs. Davis. Is there any difficulty? This special duty pay, 
I think we were understanding that there was a lot of problem 
in whether it was processing the special duty pay. Is that the 
problem?
    General Rochelle. Let me see if I can reiterate what 
General Cheek very correctly stated.
    For an individual who is not assigned to a position, the 
position is one that is authorized special duty assignment pay. 
If you are in a borrowed military manpower, you are on loan 
from a unit, you are not occupying a position; you don't occupy 
the position. Therefore, a quirk in the system causes you not 
to be able to receive the special duty assignment pay.
    Again, one of my extraordinary senior executive service 
leaders inside the G-1 worked this very, very hard, and 
recently, within the last week, we put a worldwide message out 
to the field that explained, we have solved this forever, and 
here's how to execute it.
    Mrs. Davis. Can we check up on that one?
    General Rochelle. Please do, ma'am.
    Mrs. Davis. And you feel confident that that is the case as 
we move forward?
    General Rochelle. I am very confident.
    General Cheek. There were two issues. One was the borrowed 
military manpower; the other one was the previous policy 
mandated experience levels that some of our cadre didn't have, 
and that is unique to this assignment.
    For example, if you are a drill sergeant, that was not a 
requirement.
    So both of those were removed, and I am confident we have 
got this right for the way ahead.
    Mrs. Davis. Thank you. And I understand that the training 
for the cadre, especially if it was in an area that the person 
had not experienced before, is a relatively short period of 
training, but most of it is really learning on the job. Is that 
correct?
    General Cheek. There is an online course, a 40-hour course 
that they take. And then we are also setting up a course at 
Fort Sam Houston that will be a resident course. We are going 
to improve our current one. But that is the only requirement 
for training for the special duty pay, taking the online 
course.
    Mrs. Davis. Maybe we will talk about that in another 
minute.
    Mr. McHugh.
    Mr. McHugh. It is good to hear that that has been fixed.
    My understanding--I am just curious for my own 
clarification--are actually going to pay retroactively for some 
of those assignments that were caught where they didn't receive 
the special pay, because they were excluded either as General 
Rochelle explained or they were temporary?
    General Rochelle. Let me answer that, sir, because my 
understanding right now is that we will have to assist those 
individuals who are occupying those positions legitimately, 
under competent authority, with applying to the board for 
correction of military records for that.
    We do not have the authority retroactively to do it. If I 
had the authority, it would be done.
    Mr. McHugh. But you will support that?
    General Rochelle. We will absolutely support that.
    Mr. McHugh. I do think that will be a big help.
    General Cheek, you said that the issue of the manning 
documents in Human Resources Command (HRC)--and I believe it 
was to Ms. Tsongas--that you fixed that problem where you would 
have the installation commander making the assignment, and then 
having the manning document not validate that assignment.
    I am assuming, and I just want to make sure that I am 
assuming correctly, the fix is the recent FRAGO 3; is that 
correct?
    General Cheek. Yes, sir. And we have done a couple of 
things. One of them, as General Rochelle mentioned, if our 
population exceeds structure, we will use directed military 
overstrength and assign cadre against that to keep our cadre 
commensurate with the population.
    But we are also--we are going to do 90-day reviews. And in 
October, we are building the structure for a 12,000 population, 
and then we will follow that in January. We are simultaneously 
rebuilding these for 16,000. So we are going to build 
structures so that we can assign from HRC to those positions, 
but we will always have the provision to use directed military 
overstrength if the population exceeds that structure.
    Mr. McHugh. So, in essence, that FRAGO said under those 
circumstances the manning documents are irrelevant? Or don't 
apply? Let's use that phrase.
    General Cheek. Well, what it does, it directs commanders to 
make sure that their cadre stays at 100 percent in support of 
the population. That is what it says, sir.
    General Rubenstein. To use General Cody's words in a 
worldwide video teleconference (VTC) about a month ago: Assign 
to population; the paperwork will follow up.
    Mr. McHugh. Well--and General Cody is a great American and 
a great soldier, but there was a lag, at best, or a total 
disconnect between what he said and what was implemented. That 
is why I think the specifics of this are pretty important.
    General Cheek. Yes, sir.
    And just as an example, tomorrow we have a video 
teleconference with United States Army Forces Command (FORSCOM) 
and our major commanders; and they will go line by line, and we 
are going to review this. So one of the points that you have 
made about disconnects between our senior leaders in the Army 
and the echelons between, all the way down to the Warrior 
Transition Unit, I will accept we have had our challenges 
there.
    But we are really working hard to get full ownership, from 
the Secretary and the Chief, all the way down to the squad 
leader; and this is one of our steps to do that.
    Mr. McHugh. And I think that process tomorrow is an 
invaluable one because, frankly, we are still getting 
anecdotally that problem of manning documents being used as 
kind of a shortstop against where the intent lies. And that is 
to fill these billets and to meet the challenge, so that is 
certainly a step in the right direction.
    Talk to me--and maybe it would be General Rochelle--but the 
capacity, the structure within this process to judge growth, it 
seems to me, is critical. General Cheek just mentioned the 90-
day review process. The implementation documents for this 
program called for 90-day look-backs to try to ensure that we 
are projecting growth, we are accommodating current needs, et 
cetera, et cetera, and yet there were shortcomings.
    Was it an inadequate evaluation process? Was that 90-day 
period not sufficient? Or was it, we knew all about it, but for 
various reasons, including some that General Rubenstein 
mentioned about hiring out of the civilian community that kept 
us from doing it? Do we have an adequate enough internal 
process by which we can ensure in the future that, A, we 
understand where the growth is coming--there was talk about 
Fort Campbell, for example--and, B, are we in a position to 
make sure, when that growth occurs, we have met the need?
    General Rochelle. Yes, sir. That is precisely what I was 
attempting to explain to the question from Ms. Tsongas.
    Mr. McHugh. Try again, and I will listen even more 
carefully.
    General Rochelle. I will be happy to, sir, because it bears 
repeating.
    The shortfall that we had was in linking the movement of 
assets, military and civilian, in advance of predictable 
increases into the Warrior Transition Unit. We had the 
understanding, but we were relying on a process that, as I 
mentioned in my earlier statement, simply wasn't nimble enough. 
We thought it was sufficiently nimble that we could place 
assets, either local--from the local commanders assets or from 
the departmental level to meet the growth.
    Mr. McHugh. Was that lack of nimbleness in part what we 
just talked about with General Cheek and the manning document 
issues? Is that kind of lack of?
    General Rochelle. I think it is, sir.
    Mr. McHugh. That is fair.
    General Rochelle. And for military and civilian, going 
forward, the committee will see a much better synergistic 
relationship between the Department, the Warrior Transition 
Unit, and the Warrior Transition Office to predict: What are 
the requirements going to be at Fort Campbell? How close can we 
come, using modeling and sampling techniques, to get at the 
influx upon redeployment?
    And my goal is to position those assets before the soldiers 
arrive.
    Mr. McHugh. So we are as nimble as we need be and as 
flexible as required now; is that correct?
    General Rochelle. I am sorry?
    Mr. McHugh. We are as nimble and as flexible as we need be 
now, going forward?
    General Rochelle. I believe so. I truly believe FRAGO 3 
gives us the capability. First of all, it empowers the 
commander locally, to repeat what General Cheek said. And try 
as we might, there still were, at the lowest levels, commanders 
who felt, for whatever reason, hamstrung by the letter of the 
Executive Order (ExOrd) or the letter of the FRAGO 1 or FRAGO 
2.
    But in point of fact, it was very clear that going back as 
far as April and even before April, that the Vice's intent 
was--and it was communicated quite clearly from me--fill it 
from the local assets, and we will backfill. FRAGO 3 empowers 
commanders now to be able to do that without any equivocation.
    Mr. McHugh. From your lips to God's ears. All right.
    Madam Chair, I see my time has expired again. Thank you.
    Mrs. Davis. Mrs. Boyda.
    Mrs. Boyda. Help me understand when FRAGO 3--what was the 
timing? What is the timing on FRAGO 3?
    General Cheek. The 1st of July, right before Fourth of July 
weekend, the 2nd of July when we issued that fragmentary order.
    Mrs. Boyda. Thank you.
    When we had the pleasure, the honor of going with Mr. 
McHugh to Fort Drum, one of the things that we heard 
consistently was, I am just sitting here waiting for my MEB. 
Again, there was one person--and I don't remember her name, but 
it was one doctor--and everybody was just sitting there waiting 
for this one person to sign their papers and get going. They 
had been there for months. Two of them had pregnant wives. The 
wives--of course, they thought that they were going to be back 
home, so the wives, pregnant, were back home. As you can well 
imagine, this was not a very good thing.
    How are we going on just getting the number of MEBs 
through? And I am going with a different, kind of the broader 
question here.
    I heard you say that suicides and other really horrible 
events were decreasing. And I think, in and of itself, that is 
an honorable and worthy goal, and I am glad to hear about that. 
Are we also looking at just the time that it used to take us 
through the Medical Hold company (MedHold)--MedHold, whatever 
all those words were? Was there a time? Do we have metrics for 
how long it used to take us? And are all of these, is 
everything that we are doing actually moving the timetable up 
any more? Do we have metrics before, after, and talking about 
MEBs? Please.
    General Rubenstein. Ma'am, when I got through Eisenhower 
Medical Center in the late 1990's, I had a soldier, MEB, 
Medical Hold soldier who had been there for 6.5 years. We don't 
have those kinds of issues anymore.
    Mrs. Boyda. I appreciate that. Anecdotes are interesting. 
Do we have set goals? Generally, where are we? Is this speeding 
this up for us? Do we know that it is speeding it up? And do 
you have some metrics of where things were one and two years 
ago? And what do you expect to have?
    General Rubenstein. Yes, using the MEB as your starting 
point for that question, we do have metrics. Ninety days from 
the time the soldier is on profile until the MEB is in the mail 
to the next step, which is PEB, the Physical Evaluation Board. 
So the MEB is done at the local hospital level, and then mailed 
to the PEB, which then defaults to General Rochelle's G-1.
    Mrs. Boyda. I am actually understanding all this now. It is 
frightening.
    General Rubenstein. Our metric is and has been 90 days. And 
we can go back into data files; I can take you back to Fort 
Drum in 2002 and tell you what the numbers were, or 2006 or 
today, 2008. And we do track those very, very closely.
    The MEB physician at Fort Drum, when she arrived, the 
kickback rate--when the MEB goes to the PEB, the kickback rate 
was 40 percent. She and the command elected to go for quality 
of the MEB process, not speed. And she was able to get the 
kickback rate down to zero percent in April and May.
    Now, to do that, she had to learn her job. This is--as we 
heard earlier from the subcommittee, this is putting people 
into jobs that they had not done before. And this physician had 
not been an occupational kind of MEB doc; You have to learn how 
to be an MEB doc.
    Now, we have put a second physician at Fort Drum doing MEBs 
along with this particular physician. We have fired a 
contracted doctor who was working with her, who was not doing a 
good job, and erased the backlog. Over 110 MEBs left or will 
have left Fort Drum by the end of this month, next Thursday.
    Mrs. Boyda. Let me say again, too, I think that is--I 
applaud that.
    What metrics do you have or something? I don't mind saying, 
I was looking forward to going up to Fort Drum and being told 
that things were going well. And, in fact, they are going well 
much of the time, but we had some really fundamental underlying 
problems. And what was a little concerning to me is it felt 
like the subcommittee was the one who was saying to you all, 
there is a real problem here, and we are hearing about it in 
living color.
    I want you to know that I hear about that same sort of 
thing. I just dealt with a mother who was--and father, but a 
mother who was absolutely beside herself with an extremely sick 
son, extremely sick son, who could not get into a WTU to save 
his life--and I mean that almost literally.
    And when we had to intervene to get that to happen--and 
this is something that should have happened. What I am looking 
for is where--I just want to know that those are, somewhere or 
another that you are following those metrics and you are able 
to pick those things out before we happen to show up at Fort 
Drum or Fort Riley or wherever we show up and do a sensing 
session.
    General Rubenstein. And, in fact, we do track MEBs at every 
one of our hospitals and every one of our large clinics that do 
MEBs. We track it every month. We track the number of patients 
who have been there 0 to 15, 16----
    Mrs. Boyda. Were you already then--and I am putting you on 
the spot.
    Were you already, then, aware that this one woman who was 
doing the Lord's work there at Fort Drum was not able to keep 
up? Were you already in process doing something about that? Or 
was it our being there?
    General Rubenstein. No, ma'am. My e-mail to your staff on 
20 June, I expressed that in fact we were aware that Fort Drum 
was having a problem. The Fort Drum chain of command, the 
commander of the hospital and his staff, were working on a Lean 
Six Sigma, a quality improvement process, which is a process 
designed to implement change that is permanent as opposed to 
fixing something very rapidly and it goes away. And so what I 
directed on 20 of June was to put the Lean Six Sigma project on 
hold, to go in and clean out the backlog, and then to resume 
the Lean Six Sigma project to develop permanent change. Then we 
will learn the lessons from that permanent change that we can 
apply to our other 25 hospitals and remaining large clinics 
that do MEBs.
    We had an eye on it. We observe our MEBs across on all 26 
hospitals on a monthly basis. We let local commanders make 
efforts to fix their issues, as opposed to using a 2000 model 
screwdriver to fix it for them. In this case, we did direct, 
with a 2000 screwdriver, to wait to fix the backlog--and as I 
mentioned, 110 MEBs will leave post this month--and then to go 
back to the Lean Six Sigma project for permanent change.
    Mrs. Boyda. I appreciate your helping us with the visit, 
too. So thank you for everything.
    Mrs. Davis. Before I go to Ms. Tsongas, if we were to go to 
a sensing session today, at what base would you expect that we 
would hear the most complaints, that perhaps they haven't been 
able to move through this sensing session or the MEB process as 
swiftly as you have just been able to articulate?
    General Rubenstein. I couldn't answer that right now. I 
could get an answer to you, but I don't know.
    Are you saying as far as bases that have slow MEB rates?
    Mrs. Davis. Right.
    General Rubenstein. I can get that for you.
    [The information referred to can be found in the Appendix 
on page 61.]
    General Cheek. Generally, what I could tell you is our 
installations where we have deploying units, a high number of 
brigade combat teams, are where we have the greatest challenges 
in our MEB timelines.
    The best one is Fort Bliss, Texas, where they consistently 
process theirs under 50 days and they have none waiting over 90 
days. So they do an excellent job. And one of the things that 
we will do this fall at our conference, we are going to bring 
in some of our best practices, Fort Bliss being one of them, 
and have them share just what it is that they are doing.
    And what I will just tell you is, it is the cooperation 
across that installation. It is not all tied to medical 
processes, but it is the cooperation of unit commanders and 
others that make them so successful, and a really superb 
administrator that runs their program.
    So we have some places where they are successful, and we 
have got to share that across the Army to try and improve 
everywhere. But those with dedicated people that you invest in 
to do that, you will have success.
    General Rochelle. Madam Chair, may I comment on question, 
if I may?
    I would like to come back to Mrs. Boyda's question about 
something fundamentally wrong. And I would offer two points. 
First of all, is a bright spot on the horizon. General Casey 
has asked retired General Fred Franks, Desert Storm hero and 
Vietnam era amputee, to lead a 90-day effort to blow into what 
General Casey refers to as the logjam of the MEB/PEB process. 
And it is a logjam.
    General Rubenstein is absolutely correct. We monitor month 
by month across the entire Army where the Army stands against 
the Department of Defense standards for timeliness of Medical 
Evaluation Boards and Physical Evaluation Boards. And I 
daresay, across the entire Army, we are not meeting the 
standard.
    To my critical point, though, to your question, ma'am. The 
fundamental problem is that the Medical Evaluation Board and 
the Physical Evaluation Board place the soldier and the service 
at adversarial relationships. It shouldn't; it should not, but 
it does. And until we get the service out of the disability 
rating process, it is going to continue to be that way.
    Mrs. Davis. We will come back perhaps to that discussion.
    Ms. Tsongas.
    Ms. Tsongas. I have a question more about, at the end of 
that cycle as warriors are transitioning out, what percentage 
go back into regular service? Do you know? As opposed to 
leaving the services?
    General Cheek. Yes, ma'am. For this last month, it was 42 
percent. Historically, it is around 65 percent. And one of the 
reasons why we are seeing this drop right now is, I think, as 
we are beginning to see this population of soldiers that were 
in the Medical Evaluation Board process that we moved into the 
Warrior Transition Units. And traditionally, when you are in 
that process, less than 10 percent will remain in the service 
when they enter that process.
    So I believe we will see that come back up to the 50-65 
percent range. But that is where we are right now, 42 percent.
    Ms. Tsongas. And do you have in place a process following 
those who get back out into regular duty to sort of see how 
they are doing, and to use the feedback, the data from their 
experiences, to refine what you are doing in the transition 
units?
    General Cheek. Ma'am, I don't know that we do. That is a 
great idea, though, and I think it is something that we ought 
to pursue.
    One of the things that we do want to do for our soldiers 
returning to service--in fact, I was at Fort Bliss, and a 
soldier who was returning to duty remarked to me that there 
were a lot of programs in the WTU to help soldiers who were 
leaving the service, but not a whole lot to help the soldiers 
that were staying. And leave it to a soldier to give you that 
blinding flash of the obvious.
    And General Rochelle is well involved in this as well. We 
are going to put retention noncommissioned officers (NCOs) in 
our Warrior Transition Units, and build a program around them 
to retain a lot more of these soldiers that are probably 
medically fit, maybe not in their original military specialty, 
but in another one, and also have a rigorous program to assist 
them as they go back in. And when we work this up, one of the 
things we want to do is bring some of those soldiers in to talk 
to us and their chain of command so that they can help us build 
that system.
    Ms. Tsongas. Thank you.
    Mrs. Davis. Dr. Snyder.
    Dr. Snyder. Help me understand, if you would. When a unit 
decides to put a person into the Warrior Transition Unit--I 
guess I will address this to General Cheek--I assume there are 
orders cut, there is a formal transfer to that unit. Is that 
correct?
    General Cheek. Yes, sir. In fact, we just revised that 
process in our current Fragment Order 3 that we have referred 
to many times.
    The commander in evaluation of the soldier will make a 
recommendation--and I am talking about the unit commander. He 
will write a memorandum saying, ``I would like this soldier 
assigned to the Warrior Transition Unit.'' And then there are 
several forms that will go with that, the chain of command's 
assessment and his medical providers' assessment as to his 
medical condition.
    That application will go to what we call the Triad of 
Leadership--the installation commander, medical treatment 
facility commander, and WTU commander--and because we have such 
variation across the Army in size and scope of Warrior 
Transition Units, that triad of leadership will determine what 
process they will use to review that, I will call it, 
``application.'' And that system that they design will make the 
decision whether to allow that soldier in or not.
    Dr. Snyder. And then that person is formally assigned to 
that unit?
    General Cheek. Yes, sir.
    There are some instances where we will attach, but yes, 
assign them to the unit.
    Dr. Snyder. Let me put it another way.
    Does that mean that for some of them, then, they actually 
have to pack up their bags and move to a different barracks, 
living quarters?
    General Cheek. Yes, sir.
    Dr. Snyder. It is a move. You had talked before about--you 
seem to be as adverse to this idea of a waiting list as 
probably we are, but as you have looked at the 12,000-plus 
people that are there now, do you look at some of them and say 
at this point, some of those should have stayed with their 
unit?
    I don't know if the blown-out shoulder from weight lifting 
is a good example.
    Or are there some people that should have--that you see, 
looking at your universe of these numbers that are going up, 
and you are looking at some of those and saying--I may have 
missed this in early testimony, but--these people really were 
not the kind of folks the Warrior Transition Unit was set up 
for? We want them to have good care, but they could have been 
staying on sick call, put on light duty, sitting in the office 
helping someone while they have got their ankle propped up or 
still keeping all their appointments?
    Where are you all at with that evaluation?
    General Cheek. And, sir, when I go out and visit Warrior 
Transition Units, that is exactly a question I will ask, 
especially the cadre, not so much the soldiers themselves. And 
the response I get is typically, between 10 and 30 percent they 
feel--the cadre feels don't need the managed care that we have 
in a Warrior Transition Unit.
    So I believe the answer to your question is, yes, we have 
some that--they are probably all benefiting from that focused 
healing environment, but some of them would do perhaps just as 
well in their units in the way we have done this in the past.
    Dr. Snyder. Ten to 30 percent is a high number.
    General Cheek. Yes, sir.
    Dr. Snyder. When you are talking about 12,000, you are 
talking up to 3,500-4,000 people that may not be. That would 
solve some of your manning issues.
    General Cheek. It would, sir.
    And one thing, too. We want to be very careful about how we 
proceed on this, because one of the things we don't want to do 
is have our soldiers think that we are going to take the axe 
out and chop a bunch of folks out of the unit.
    Dr. Snyder. It just means they could get lost again.
    General Cheek. Yes, sir. We are going to be real careful. 
And what we have told the commanders is, based on the 
recommendation of the Triad of Care--that primary care 
physician, nurse case manager and squad leader, in consultation 
with the soldier--we will look to make a recommendation to move 
him on.
    Dr. Snyder. Of the 12,000 that are currently in the Warrior 
Transition Unit, how many of them during the day are going to a 
duty station and performing some kind of work duty?
    General Cheek. Yes, sir.
    Dr. Snyder. In line with their military occupational 
specialty (MOS)?
    General Cheek. Depending on the capabilities of the 
soldier, we mandate that they be enrolled in some kind of work 
or education program. And we are probably at about 75 percent. 
There are probably some more that we can add to that. But a 
great many of the soldiers will go either on the installation 
and work, or back to their parent unit that they came from and 
do work. And we have a variety of other things that they do; 
some take college courses and other things like that.
    But as part of our comprehensive transition plan, we want 
to have a plan for them to develop or to improve medically and 
heal, but also personally as well as professionally. And so we 
want to make this a very strong environment that prepares them 
for that transition back to the Army or as a veteran in the 
civilian community.
    Dr. Snyder. My last question is, when would be the 
recommended time, if you were sitting here, for this 
subcommittee for hold another hearing like this for you all to 
hear about how we are doing?
    Three weeks after you retire?
    General Rochelle. No, sir.
    Again, I have reviewed the testimony on the four previous 
hearings all the way back to General Schoomaker, Chief of 
Staff, on this particular subject. And I know that somewhere 
along the way we declared very intentionally, and well-
intentioned, true full operational capability. And we were in 
the spirit of the AMAP, but we didn't know in many cases what 
we didn't know. And I am referring to the bureaucracy at the 
lower levels and the bureaucracy at the higher levels--the 
special duty assignment pay as an example.
    In my humble opinion, I think we will be--between October 
and January, we will, no kidding, be full up and running, as we 
have testified.
    It takes time to kill bureaucracies. It takes time to make 
sure that in an organization as large as the Army, stretched as 
much as the Army is and moving in as many different directions 
as the Army is, to have something of this novel nature really 
operating the way we fully intended it to.
    So, sir, respectfully, my answer to your question is 
between October and January of 2009.
    Dr. Snyder. Thank you. Thank you for your service.
    Mrs. Davis. Thank you, Dr. Snyder.
    And we certainly appreciate all of your responses, and we 
know that this is very important to you. It is obviously very 
important to our soldiers and their families. And I think, if 
anything, we came away from the Fort Drum experience sensing 
session there feeling that we needed to do better by all of 
those, that it was important to do that.
    You mentioned, I think, General Cheek, a focused healing 
environment. And I went with the expectation that we would see 
that focused healing environment. Perhaps that was unrealistic, 
but I think that it was also frustrating to get the sense that 
people were sitting around, a level of boredom and anxiety, not 
feeling that things were happening for them.
    And one of the concerns that we heard--and we went to Fort 
Drum partly to see how the community and the military 
facilities work together; and I know, as the staff has gone 
around to other facilities, to other bases, there seemed to be 
certainly a willingness--and you mentioned, I think, General 
Rubenstein, the aggressive nature of trying to get appointments 
for soldiers downtown, wherever that might be, where there are 
other mental health providers, other providers who are there in 
the community.
    And yet we are also hearing, the staff is hearing that 
there is kind of a reluctance on the part of the commanders in 
some cases to open up those opportunities, that they are having 
a hard time getting those appointments. And we certainly heard 
that at Fort Drum; they were waiting a long time.
    They acknowledged that they didn't have the providers they 
wanted, either. A new clinic was opening up.
    But I am wondering how you see that changing at all, that 
people are able to get the appointments that they need. No 
matter how many cadre you have, even with a low ratio, if the 
appointments aren't coming through, then that is going to be 
difficult for everyone to move that situation forward.
    The other question I would have is just about the standards 
by which people are asked to see soldiers, whether the time 
frame, is it 30 minutes, is it 45 minutes, an hour? What kind 
of--what do we know about the appointments that are being made 
and the level of care they are being provided, the level of 
expertise, so that people can move from one point to another?
    It is fine if people are getting their appointments, but if 
nothing is happening in those appointments, then that is, you 
know, not so helpful.
    General Rubenstein. To your first question, the 
availability or the reluctance on the part of commanders to 
send patients downtown, whether they are active duty in the WTU 
or not, there is no corporate, there is no organizational bias 
about sending patients downtown. Wherever you need to send a 
patient to receive care is where we send a patient to receive 
care.
    Fort Drum in particular, in October of last year we sent 
380 patients downtown. In April of this year, 6 months later, 
over 500, almost 550 went downtown. So it is a growing trend to 
send patients downtown if that is where the care is available 
for them.
    As far as the type of appointments, we run a variety of 
types of appointments, from an initial appointment to a family 
practice doc to a psychiatric appointment with a psychologist 
or a psychiatric appointment with a psychiatrist. They are all 
at different lengths. The length of the appointment is 
appropriate to the needs of the patient.
    Now, that is from the perspective of our health care 
providers. Not all patients think they get enough time when 
they see their doctor. That is true in the military, that is 
true in the civilian sector. The literature is replete with the 
patients who walk in with the latest advertisement for the drug 
or the application or the treatment which they have read about, 
which may or may not be appropriate for them. The same is true 
with getting the amount of time you think you need to get with 
your provider.
    Mrs. Davis. Is there anyone who oversees that care so that 
there is some opportunity to talk professionally even about 
what people are seeing, what kind of resources they are 
accessing?
    I am just wondering, is there anyone who organizes that to 
the extent that you are able to get the best utilization, the 
best professional care, and that there is dialogue about that, 
that there is some interface?
    General Rubenstein. There are actually a variety of 
mechanisms to do just that.
    Within the WTU itself, you have the nurse case manager, the 
supervisory nurse case manager, the primary care provider, the 
squad leader, that triad with the supervisory nurse case 
manager looking at cases, discussing cases if it is a small, 
like Fort Leavenworth where there are 19 Warriors in 
Transition, or a large WTU, like Fort Hood with over 1,300.
    So among themselves at the WTU level, they are discussing 
the needs of their patients.
    Additionally, within the hospital or clinic, we have got 
the deputy commander for clinical service and the deputy 
commander for nursing who are talking among themselves, a 
variety of committees that all hospitals are required to have 
to meet Joint Commission accreditation, which all of our 
hospitals do. And so there are a variety of committees and work 
groups; and in the case of the WTU, the Triad of Care who are 
constantly talking about the health care needs of their 
patients.
    Mrs. Davis. Thank you. I appreciate that, because I think 
that sometimes we assume that that is happening, and I want to 
be sure that the oversight is there so that we know that it is 
and that people are having the adequate kind of consultation 
time that is really required.
    Earlier we talked, very briefly--and my time is up, but I 
wanted to just clarify. You talked about the one-year authority 
for hiring that you have.
    Actually, in the authorization bill it is up to three 
years.
    General Rubenstein. Yes, ma'am. We are just waiting for 
Department implementation of that.
    Mrs. Davis. Good. We are hoping that you can go forward 
with that anticipation.
    General Rubenstein. As are we. Thank you very much.
    Mrs. Davis. Mr. McHugh.
    Mr. McHugh. I mentioned earlier, I was happy when General 
Cheek said they were going to have a video teleconference and 
talk about the changes with respect to HRC and the manning 
documents. And perhaps I should make a suggestion for a second 
topic in that.
    What our staff had heard repeatedly is that as folks within 
the WTUs went through their MEBs, they might find themselves in 
a circumstance where there was a tag on, for whatever reason, 
for a psychiatric evaluation. That psychiatric evaluation, of 
course, takes time, and the process of going through that, some 
of the prior findings, including the physical exams that were 
used to validate those findings, had expired and had to be 
redone.
    Now, that was addressed in the 2007 implementation document 
in that, as I read it, the commanders were given the authority 
to waive that expiration in a case needs basis. But apparently 
that has either been forgotten, or they need to have a booster 
shot to be reminded of their authority there, because we are 
still hearing, General, from people within the WTU that they 
are encountering that kind of frustration where they are almost 
through and a psychiatric exam will expire some of their 
previous physical exams.
    So maybe you can----
    General Cheek. Yes, sir.
    Mr. McHugh. Remind them of that so that we can get through 
there, because I think it is another example of this disconnect 
where a problem was recognized at a level, the authorities were 
implemented or documented out to circumvent it, and for 
whatever reason, the problem still exists.
    General Rubenstein. We will touch every one of our MEB 
facilities in the next few days and pulse that, sir. Thank you.
    Mr. McHugh. Thank you.
    Now, under the topic of unintended consequences, a couple 
of things that I think we ought to be concerned about and try 
to avoid a hearing in the future where we talk about these 
problems that could result out of our very laudable and 
necessary and ongoing efforts for the WTU; and I will use two 
examples.
    We have heard anecdotally where, in an effort to meet the 
nursing shortages that go back to what you were talking about, 
General, about the recruiting problems of nursing across the 
country, reassignments are happening within the military health 
care units on the facilities, moving nurses, military nurses 
over to the WTUs to meet that need.
    We are hearing anecdotally, for example, at Fort Hood where 
up to 50 percent of the military nurses have been assigned from 
the base's medical facilities to the WTU, and the result is, 
you are having to take another look at perhaps closing some 
beds because now you don't have the necessary nursing cadre at 
the facility.
    I don't know, you are probably not in a position to comment 
on that specifically. But we sure don't want to see a 
cannibalization of necessary personnel into the WTUs--and that 
is all we have talked here about today; I think we have made it 
pretty clear, we want to see those ratios met, and I know you 
do, too, but--where we create another problem somewhere else.
    General Rubenstein. In fact, I can speak to that.
    Mr. McHugh. Let me just give the other example so maybe you 
can handle both at once.
    But the other thing that concerns me--and, General Cheek, 
you commented about, that is the way we used to handle folks 
who had a medical challenge, non-combat-related, that was, 
shall we say, less serious. We created Medical Holds for the 
distinct purpose of getting folks who had a need for time of 
recovery with the good intention of getting out of those base 
units, because apparently there was a lot of pressure to suck 
it up by the unit commander, suck it up and get out there. And 
you all know that phenomenon.
    The WTUs came as a follow-on to the Medical Hold 
circumstances for a lot of different reasons, but that well-
intended effort to create the Medical Hold still exists. So are 
we taking a step backwards when we pull these folks out who 
were not hurt in a combat, theater combat, and hurt more 
seriously, but do have medical challenges?
    I just worry about back to the future.
    General Rubenstein. I will start and then pass it off to 
General Cheek.
    I talked with Colonel Casper Jones, the commander at the 
Fort Hood Hospital Medical Center on Saturday, and he told me 
on Saturday that if he moves nurses from his hospital to the 
WTU, he would break the hospital. And I told him not to do 
that, that given the fact that of his 1,300 soldiers in the 
WTU, 166 are actually on leave, just ready to depart the unit 
and go to the next assignment, and given the fact that they 
have got things well in hand, I told him not to move and break 
the hospital itself.
    So that is the answer to that first question.
    Mr. McHugh. That is an example. I want to make sure that we 
are not somewhere else where perhaps the commander isn't----
    General Rubenstein. We directed all 26 hospital commanders 
to look at the potential of moving--and I am going to speak to 
the medical side, not the squad leaders and such.
    We directed all 26 hospital commanders to look at their 
hospital, to move where they could, but not to break anything 
in the process.
    In getting ready for tomorrow's VTC with General Cody, 
yesterday and today, each of the hospitals have briefed the 
Medical Command (MEDCOM) headquarters on what they did over the 
weekend, what risks they may have taken with their hospital, or 
where they made a decision not to move someone to the WTU 
because of the negative consequences--the second order effect 
you very rightly bring up.
    Mr. McHugh. Thank you.
    General Cheek. Sir, I would just say I think it is a valid 
concern. And for the soldiers that remain in their unit to 
rehabilitate, we are going to have to keep a close eye on them.
    But I would tell you, frankly, we have quite a number of 
those soldiers right now in the Army, all around our units, 
that are doing very well and rehabilitating from things like we 
said, like a torn cartilage in the knee or a shoulder injury.
    We actually, in looking at this FRAGO, considered an 
enrollment program where we would enroll soldiers that remain 
in their units and track them and give them some priority. And 
actually in concert with and discussions with your staffers, as 
well as the Soldier and Family Assistance Centers (SFACs) and 
our commanders, they all really said, ``Hey, not so fast,'' and 
really hold off on that.
    So we have tabled that for now. We will keep it in 
consideration if we see an issue with it.
    But I do think the Medical Hold, that is really a different 
category of soldier; those really matched closer to our really 
severely injured soldiers, rather than what we are talking 
about of a more routine nature.
    In fact, as a commander, what I would tell you as an 
operational commander, I couldn't figure out how to get a guy 
into Medical Hold. It was too hard, literally. So we just took 
care of those soldiers under their leadership.
    And I think that is important as well, that the Army's 
leaders be responsible for their soldiers, both personally, 
professionally, and medically, if necessary to get them to 
their proper care.
    But we will watch that, and if we have bad consequences, 
then we will look to how we can improve that.
    Mr. McHugh. Thank you, Madam Chair.
    Mrs. Boyda. Thank you very much.
    A couple more questions. And, again, I appreciate the 
opportunity to keep going around on here. And you guys have 
been extremely patient, and I really appreciate your answers.
    Let's talk military construction (MILCON) here. We have got 
some real MILCON struggles.
    From what I understand, we still are looking forward to 
what the whole military construction is going to need to look 
like. And it is my understanding that when we asked for a list 
for this particular hearing, that the comptroller of the 
Department of Defense (DOD) said, No, we are not able to give 
that to you, or we are not going to give that to you.
    Do we have--does this committee or does our Military 
Construction Subcommittee have an idea of what has to be done?
    Clearly, the one that pops up is Fort Carson that, in fact, 
we are just asking for a highly improbable/impossible to be 
done there, and yet we don't see where we are headed with 
MILCON.
    Can you address that, please.
    General Wilson. Yes, ma'am. I will be glad to address that.
    I think from the beginning, you know, kind of where we 
started with our modifying our existing facilities; and with 
the Congress' help, $162 million in 2007 and then $100 million 
in 2008, we have been able to almost complete that.
    That is taking 35 WTUs, a combination of the three types of 
facilities, and modifying the existing ones to accommodate our 
Warriors in Transition. That was an intermediate step.
    What we need is our permanent construction dollars to 
create this campus-like environment and place those where they 
need to be, close to a medical facility.
    Mrs. Boyda. Did I miss something? And it would be highly 
possible that I did.
    Did I misunderstand? Does this committee have your 
projected needs for MILCON through whatever the Five-Year 
Defense Program (FYDP) is here?
    General Wilson. You do not have that. I submitted that. The 
Army submitted that to the Office of the Secretary of Defense 
(OSD), a request for supplemental funds. It is down from the 
initial $1.4 billion we looked at. We have kind of sized that 
on what we think the 21 new construction for permanent 
facilities should be. The dollar amount for that is $981 
million, and we have submitted those 21 installations to OSD.
    And I would be glad to give that to Chairman Edwards and 
his committee, if you would like. They are looking at that and 
we are working together.
    Mrs. Boyda. At Fort Riley, where I represent, things are 
moving along in that direction; and it has been a huge benefit, 
and everybody is very happy. So if you could help us just get 
that so we are making sure that we are pretty even--nothing 
will be completely even, but we want to make sure we understand 
where we are going with that.
    Then the final question that I have just comes back to the 
retention of as many of these soldiers into our military. A 
question that I get--just have had it a couple of times from 
people in my district; and these are not military--they would 
be a military family grandma, generally something like that.
    What am I supposed to say to them when they say, ``Are we 
training our young men who are suffering from some PTSD, to 
bring them back in as people who would be trained in the PTSD 
and stay in the military?'' Realistically, how much of that are 
we able to accomplish, how much of that is going to be a good 
thing?
    I don't want to oversell it if it is not a great thing. But 
I have actually gotten that question twice, and I would like to 
know how we do that. And is there a disconnect between veterans 
who have come back or active duty that have come back from 
Operation Enduring Freedom (OEF) and Operation Iraqi Freedom 
(OIF) versus somebody who tore his cartilage? Does everybody 
have the same opportunity to stay in the military and serve 
their country?
    General, if you could talk about retention. Are we asking 
people to do that?
    General Rubenstein. Our number one goal for every wounded 
warrior is to allow him or her to return to active duty. I gave 
some examples earlier of soldiers who were in combat, soldiers 
jumping out of airplanes; and there are many, many other 
examples of soldiers who are staying on active duty with 
injuries that heretofore would have just, blanket, have sent 
them home.
    Mrs. Boyda. Does every soldier get treated pretty similarly 
in that regard, or is there any preference given? I have a 
reason for asking that, but I won't go into it. Generally, is 
there any differentiation between soldiers in how they are 
encouraged to stay in? Or are they all out there looking for 
new MOSs, if that is necessary?
    General Rubenstein. There is no differentiation from a 
corporate, from an organizational perspective. If a soldier has 
an injury and wants to stay in the service, we are going to 
find a way, to the best of our abilities, to work it for that 
soldier to stay in the service.
    It may require a change in career fields. It may not. It 
may take a long time to rehabilitate that soldier to allow them 
to return to duty. It may be a type of injury which happens 
very quickly. They may have been injured in combat. They may 
have been injured here in the United States, having never been 
deployed before.
    But in every regard we are going to give the soldier the 
benefit of the doubt.
    Mrs. Boyda. Thank you for clarifying that.
    What about the PTDS and bringing those men and women who--I 
can imagine that would be fraught with some real benefits and 
some real challenges--how do you balance that?
    General Rubenstein. We owe it to that soldier to work with 
them and treat them for their PTSD for that percent that do 
have PTSD.
    Mrs. Boyda. I am talking about to go into the care of other 
soldiers with PTSD. That is the question I have been asked a 
couple of times.
    General Rubenstein. To put soldiers in the care of other 
soldiers in the warrior transition unit?
    Mrs. Boyda. A soldier who has PTSD, to go back and spend 
the time to train that soldier, to send them to college, 
whatever, to come out two, three, four years later as somebody 
who is a licensed social worker or whatever, with PTSD. Do we 
ever do that?
    General Rubenstein. I don't know that we don't do that. You 
are asking for a specific example or anecdote.
    Mrs. Boyda. The first time I got it, I didn't have a really 
good answer. The second time I said, I will find out.
    General Rubenstein. We do send soldiers through our long-
term health, education, and training program off for graduate 
degrees; especially in the health care fields, we do send folks 
out for training and for further education. There is an 
opportunity to use education and training through the 
Montgomery GI Bill and such.
    PTSD in and of itself is not a disqualifying factor if we 
have the PTSD under control. There is no reason we wouldn't 
keep a soldier who is responding well and has PTSD under 
control, keep that soldier in the Army in whatever capacity he 
or she is able to serve.
    Mrs. Boyda. I think I am actually finished with my 
questions, Madam Chairwoman. Thank you very much. Thank you for 
your patience.
    General Wilson. Congresswoman, if I may close out with you 
on your specific question at Fort Riley, those projects for 
Fort Riley were----
    Mrs. Boyda. We are good on Riley.
    General Wilson. They are coming. It is a good news story 
for Fort Riley.
    Mrs. Boyda. Again, as I understand--Fort Carson, is that on 
schedule and where do we stand with that specifically? There 
were some temporary buildings that I think are scheduled--
contracting problems.
    General Wilson. Fort Carson, the billets and the battalion 
headquarters and company headquarters are in our 2009 
supplemental request for these facilities. We need permanent 
facilities; we are in temporary facilities now.
    But the permanent solution has not been--it is going to go 
forward with the 2009 supplemental, we hope.
    Mrs. Boyda. Thank you very much. I appreciate that.
    Mrs. Davis. Thank you, Ms. Boyda.
    Thank you for hanging in there over the course of the last 
few years, and we will conclude it in just a second. I want to 
just mention, because as part of the defense authorization we 
did include language that would incentivize us to capture 
essentially those men and women who have perhaps suffered from 
PTSD--or not--who would like to go into mental health provider 
fields to be able to really help out their peers. That is 
something that the language is there, and how exactly it is 
done, I think will proceed over a period of time.
    But I do want to recognize that the first school of social 
work for the Army was just begun this month. So we are hoping 
that we will have a number of people who perhaps couldn't move 
on with their prior fields, but they recognize how important it 
is to move on and to help their fellow soldiers. We hope that 
they would be interested in those fields, having had a 
firsthand knowledge of how that can be affected during wartime.
    So we will be doing that. I am very pleased that we are 
going to move on to it.
    One question to just follow up with the military 
construction issue for a second. About what size WTU population 
will those MILCON projects that you described support? How do 
they jibe with the population that we are seeing?
    General Wilson. That MILCON was based on moving to the 
12,000. We still have some work to do to go to the 16,000 or 
greater; we are working that. For example, I just got a request 
in from Fort Hood last Friday for additional military 
construction requirements.
    So we are still working the growth. We have executed our 
requirements based on the current population we have with 100 
percent growth over the last year. That is what is forward to 
OSD at this time.
    General Cheek. Sir, if I can add to that, that is true, but 
that also assumes a significant--well, about half of the 
population would be married and living off post. So we are not 
building barracks for 12,000 soldiers, but it reflects the 
demographics of our Army population.
    General Wilson. We look at 30 percent basically as the 
population that would need facility support. That is what we 
base that on.
    Mrs. Davis. As we continue to provide oversight on this 
issue and to move forward, will we be provided a list of all 
these requirements that you have?
    General Wilson. We can certainly provide that to you.
    Mrs. Davis. We would try and send that signal that we think 
it is appropriate that we have an opportunity to do that, so we 
can continue to work closely with you on that issue. I know the 
concern of when you might come back and have an opportunity to 
look at these issues again.
    One of the difficulties, of course, that we are dealing 
with is, there is a congressional recess coming up by the end 
of September, and I am wondering whether you feel there would 
be sufficient movement by the end September to take a look at 
some of these issues and see if we are pretty much on track, 
where you would like to be, and if there is any way we can be 
of further help.
    Is September too soon?
    General Rochelle. My estimate would be September would be 
too soon. I don't believe we would have significant movement, 
to use your term, either in terms of personnel or in terms of 
facilities to show an appreciable--appreciable change worthy of 
a hearing.
    General Cheek. Ma'am, I will be glad to provide updates, as 
we move along, to your staffers. I think we have got a pretty 
strong relationship that we can continue to update them and 
share information.
    General Rochelle. I will certainly commit to do likewise.
    I would just like to commend the staff on their tremendous 
work and passion. It is noteworthy.
    General Rubenstein. It should be noted that there is 
movement every day.
    On Friday of last week we had a job fair down in Round 
Rock, which is a small town just north of Austin, Texas. We 
walked away from that 12-hour job fair with 15 job applications 
for nurses for Fort Hood.
    So there is movement every day. What you see today is not 
what you would have seen three weeks ago or three months ago.
    Mrs. Davis. Is there anything else that you would like to 
say to the committee today to encourage us to help out in some 
other way, whether it is with the bureaucratic problems that 
you have encountered, or in any other way? Is there anything 
you would like to say that perhaps didn't get said?
    General Rochelle. Clearly--and I won't try to speak for 
everyone--but we hope that we have communicated that we are 
absolutely committed to getting this right.
    We did overwhelm ourselves a little bit. We are on track, 
and I am committed and truly believe that Frag 3 points us in 
the right direction. It unencumbers the local commander, it 
empowers him or her, and it also gives very clear standards to 
each of us on how we are going to take care of our most 
vulnerable, our wounded warriors.
    We are committed to doing that.
    Mrs. Davis. Thank you.
    General Rubenstein. I would highlight the relationship that 
we have built over time with Mr. Kildee and Ms. James. The 
openness of this committee and the openness of your staffers to 
come back to those of us who are working so hard to put the 
right programs and process in place is amazing, and that 
openness allows us to continue the work in between these 
opportunities to talk with the full committee.
    We appreciate that opportunity.
    General Cheek. We look forward to working with you and 
appreciate the support that you and your staff have given us. 
It has been very helpful.
    Mrs. Davis. Thank you. Thank you gentlemen. We appreciate 
your testimony today.
    Thank you for thanking our staff. We appreciate them as 
well.
    We will look forward to the next opportunity that we have. 
Thank you very much.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             July 22, 2008

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 22, 2008

=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 22, 2008

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    General Rubenstein. The Military Treatment Facilities experiencing 
the slowest average processing times for Medical Evaluation Boards in 
July 2008 were Fort Drum, New York; Fort Riley, Kansas; and Fort Hood, 
Texas. [See page 28.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             July 22, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MRS. DAVIS

    Mrs. Davis. One of the problems identified at Walter Reed last year 
was that using wounded warriors as squad leaders and platoon sergeants 
was not a good idea. In fact, that would appear to be the philosophical 
underpinning of the entire Army Medical Action Plan. However, that 
seems to be happening at least two Warrior Transition Units that the 
staff visited, Fort Polk and Fort Drum. Feedback from both the warriors 
in transition and the cadre indicate that these soldiers are 
performing, but that the cost is too high. Perhaps the most telling 
quote was from a warrior in transition serving as a squad leader who 
said, ``I'm an NCO, and a proud one at that, so I will accomplish my 
mission. But as a squad leader, my mission is to take care of my 
soldiers. My mission is no longer healing myself.'' How did this 
happen? What steps are being taken to fix this?
    General Rochelle, General Cheek, General Rubenstein, and General 
Wilson. A thorough examination of current practice reveals that 
established guidance is being followed, and that there are no issues 
with regard to the manner in which Warriors in Transition are being 
allowed to participate in therapeutic work activities in Warrior 
Transition Units (WTUs).
    No Warrior in Transition is required to assume the duties of a WTU 
cadre member. More importantly, the U.S. Army Medical Command (MEDCOM) 
established stringent criteria for Warrior in Transition participation 
in WTU cadre duties in Fragmentary Order 17 to MEDCOM Operation Order 
07-55, which states:

        Warriors in Transition will only be assigned as duty drivers 
        and fill WTU cadre positions while assigned to WTUs on a case-
        by-case basis with the approval of the local WTU Commander and 
        or Command Sergeant Major/First Sergeant. The assignment of WTs 
        as duty drivers and WTU cadre will be the exception and not the 
        rule.

    Further, preparing to transition back to the force or to a 
productive civilian and/or veteran status is an important element of 
the Warrior in Transition's mission to heal. Hence, functioning as a 
WTU cadre member can be part of the healing mission.
    As of October 22, 2008, only 15 Warriors in Transition are 
performing duties as WTU cadre members (out of a population of 9,878 
Warriors in Transition assigned or attached to WTUs and an additional 
1,415 Warriors in Transition attached to Community Based WTUs 
(CBWTUs)). Of these 15, one was recently continued on Active Duty; two 
are currently transitioning to continued on Active Reserve status, 
effective November 1; one has healed and is awaiting transfer to an 
Active Component unit; one has recovered and will be assigned to an 
Active Component unit as Battalion Executive Officer, beginning in 
November; five are attached to a CBWTU and are functioning in CBWTU 
cadre positions as their regular duty due to a lack of other duty 
positions near their homes; and the remaining five have been determined 
by the Triad of Care to be sufficiently recovered to function in WTU 
Squad Leader (4 individuals) and Platoon Sergeant (1 individual) 
positions as part of their therapeutic work requirement as they 
continue to heal and prepare to transition back to the force. None of 
these 15 WTs are from Fort Polk or Fort Drum.
    The current system of managing Warrior in Transition care is 
working well. As part of the process of assessing the ability of each 
of the previously mentioned Warriors in Transition to function in WTU 
cadre positions, the Triad of Care developed risk mitigation plans. 
These are carefully structured plans to determine if cadre duty is 
appropriate and it requires the approval of the WTU Commander. 
Additionally, the Triad of Care, with the input of other medical and 
health care professionals involved with the care of these Soldiers, 
develops a Comprehensive Transition Plan to guide the management of the 
therapeutic work activities of Warriors in Transition who are assigned 
WTU cadre duties to ensure they continue to contribute to the healing 
and transition process. The fact that only one tenth of one percent of 
Warriors in Transition are performing WTU cadre duties is an indication 
that the prescribed case-by-case approach is being applied judiciously.
    Mrs. Davis. At just about every Warrior Transition Unit the staff 
has visited, they heard frustration from both the warriors in 
transition and the cadre that it was too difficult to get soldiers 
transferred to a Community Based Healthcare Organization. Is there a 
backlog at the Community Based Healthcare Organizations? We have heard 
from senior Army leaders that they actually prefer the Community Based 
Healthcare Organizations to Warrior Transition Units. Do you gentlemen 
agree? If so, what can be done to facilitate the transfer of warriors 
in transition to these units?
    General Rochelle, General Cheek, General Rubenstein, and General 
Wilson. The Army leadership is committed to the appropriate placement 
of Reserve Component (RC) Warriors in Transition in Community Based 
Warrior Transition Units (CBWTUs). This process does, in some cases, 
require significant examination of the environment of care. However, 
every effort is made to expedite this process to ensure that eligible 
RC Warriors in Transition can return to the familiar surroundings of 
home as quickly as possible, confident in the fact that they will 
receive the care they require.
    A backlog does not exist at any of the nine CBWTUs. In fact, the 
Army prefers to return RC Warriors in Transition Soldiers to locations 
as near as possible to their homes to complete their healing, provided 
Military Treatment Facilities. Veterans Affairs Facilities, or 
community medical resources are available to provide the care the 
Warrior in Transition requires.
    Army Medical Command policy stipulates that all RC Warriors in 
Transition be evaluated within 30 days of their arrival at the WTU for 
potential transfer to a CBWTU to complete their care. This evaluation 
is comprehensive and involves making several determinations. First, a 
determination is made regarding whether the RC Warrior in Transition's 
treatment plan indicates a requirement for at least 60 days of medical 
care. Second, a determination is made (which may require examination of 
the medical resources in a location not previously evaluated) regarding 
whether appropriate medical care is available within a reasonable 
distance from the RC Warrior in Transition's home. Third, since a key 
tenet of the Warrior Care and Transition Plan is to engage Warriors in 
Transition in meaningful work, a determination is made regarding 
whether an appropriate duty location exists within reasonable travel 
distance. Finally, a determination is made regarding whether a 
particular RC Warrior in Transition demonstrates the reliability and 
responsibility required for remote management (e.g., no Uniform Code of 
Military Justice actions pending, existing behavioral health 
requirements can be managed within the community, no drug or alcohol 
abuse issues are known to be present, etc.).
    Once the above evaluation is complete and a RC Warrior in 
Transition is determined to be eligible for transfer to a CBWTU, the 
Human Resource Command mobilization office prepares orders attaching 
the Soldier (who is on Medical Retention Processing (MRP) orders) to 
the CBWTU. It is important to note that such orders are attachment 
orders only, and that all CBWTU Soldiers continue to be assigned to a 
WTU to ease their return should a change in their condition require the 
more structured management of such a unit. Considerable evaluation of 
this order generation process has been conducted to make certain it is 
timely.
    Mrs. Davis. We understand that there are three different personnel 
systems in the Army, one each for the active Army, the Army Reserve, 
and the Army National Guard. When the Army Medical Action Plan was in 
development, there was some thought given to ensuring that each WTU had 
access to all three systems, with three personnel specialists (one from 
each component) assigned to make sure the WTU could properly manage all 
of the administrative requirements for the WTs. However, the decision 
was made not to do this, but to wait for the planned October 2008 roll-
out of the Defense Integrated Military Human Resources System (DIE-
mers). The roll-out of that system has now been delayed until March 
2009 at the earliest. As a result, most WTUs only have access to the 
active Army system, and have to rely on work-arounds for WTs from the 
Army Reserve and Army National Guard. How does the Army plan to address 
this in the short term?
    General Rochelle, General Cheek, General Rubenstein, and General 
Wilson. The Active and Reserve components currently maintain unique 
human resource (HR) systems. Active component HR transactions are 
completed using the Electronic Military Personnel Office (eMILPO), the 
Total Officer Personnel Management Information System (TOPMIS), and the 
Enlisted Distribution Assignment System (EDAS); Army Reserve HR 
transactions are completed using the Regional Level Application 
Software (RLAS) and Army Reserve Personnel Center Orders and Resource 
System (AORS); and Army National Guard HR transactions are completed 
using the Standard Installation and Division Personnel Report System 
(SIDPERS). Because these systems do not interface readily with each 
other, the Department of Defense directed the development and 
implementation and of the Defense Integrated Military Human Resource 
System (DIMHRS) by March of 2009. Once implemented, this system will 
facilitate tracking of all DOD personnel, regardless of component 
affiliation.
    Warrior Transition Units (WTUs) currently use the interactive 
Personnel Electronic Records Management System (iPERMS) to track WTU 
orders, regardless of component. WTUs do not have direct access to RLAS 
and SIDPERS because both systems require a hard drop and have 
significant fire wall protections that preclude direct access to them. 
The cost to install these systems at each WTU is significant and would 
require months or years to complete. With the implementation of DIMHRS 
projected to occur in less than six months, the Army decided not to 
invest in the hard drops required for these systems.
    During the 2008 Warrior Care and Transition Office (WCTO) Fall 
Conference, information was collected from all the HR participants that 
permitted the Army to forward access enrollment forms for the various 
HR systems to them. Currently, all WTUs that sent HR participants to 
the conference have access to all of the HR systems except RLAS and 
SIDPERS.
    Although WTUs do not have direct access to SIDPERS and RLAS, they 
have coordinated with local installation support activities and state 
and National Guard Bureau headquarters to obtain the assistance. In 
response, the National Guard Bureau and the United States Army Reserve 
Command have identified direct points of contact that are available to 
assist WTUs in obtaining required information in order to satisfy their 
administrative HR processing requirements.
    Mrs. Davis. I would like to ask about the practicality and 
desirability of voluntary retiree recalls addressing some of the 
Warrior Transition Unit staffing shortfalls. Mr. McHugh has repeatedly 
and rightly asked about this in the past. As the members and staff of 
this subcommittee have visited Warrior Transition Units, we are 
constantly struck by the number of retired military nurses, doctors, 
physician assistants, personnel specialists, and others who now work 
for Warrior Transition Units. We feel so fortunate that these patriots 
continue to serve our soldiers in retirement. It is hard to imagine a 
more qualified group to fill these roles. However, it begs the 
question, why is the Army not offering these same people the 
opportunity to come back on active duty to fill these positions? A 
quick look at the number of medical providers who have retired in just 
the past five years suggests that even enticing a tiny fraction back on 
to active duty would alleviate the Warrior Transition Unit shortfalls 
in Primary Care Managers and Nurse Case Managers.
    General Rochelle, General Cheek, General Rubenstein, and General 
Wilson. The recall of retired Army Medical Department (AMEDD) personnel 
is governed by Title 10, United States Code, Sections 688 and 12301d; 
DoD Directive 1352.1, Management and Mobilization of Regular and 
Reserve Retired Military Members; Army Regulation 601-10, Management 
and Mobilization of Retired Soldiers of the Army; and the Department of 
the Army Personnel Policy Guidance for Contingency Operations in 
Support of GWOT. The Army Human Resources Command (HRC) in both 
Alexandria and St. Louis, the Army G-1, the Office of The Surgeon 
General, and the Assistant Secretary of the Army for Manpower and 
Reserve Affairs all play a role and have responsibilities in the 
retiree recall process, with HRC serving as the Army lead for 
processing requests.
    The AMEDD solicits volunteers from the retirement community and has 
had great success. Since 2004, the AMEDD has recalled over 165 retired 
physicians, dentists, nurses, behavioral health and administrative 
personnel to fill valid vacancies. The AMEDD continues to receive a 
steady flow of retiree volunteers. Specific to the WTUs, the Chief, 
Army Nurse Corps and the Army G-1 jointly sent out a letter dated July 
21, 2008 soliciting retired Army nurses to volunteer to serve as nurse 
case managers. Since this request, the AMEDD has recalled five Army 
case managers and has nine pending. The AMEDD has also used exceptions 
to policy to extend current active duty Soldiers beyond their mandatory 
retirement and release date in support of the AMEDD mission.
    Mrs. Davis. We understand the process for a retiree to request a 
recall is unbelievably long and difficult. Just last week the staff 
heard from a chaplain who was willing to leave their civilian job 
specifically to go work for a Warrior Transition Unit, and the 
seemingly needless hoops that they were forced to go through. What is 
the Army doing to leverage your retiree population? Why are you not 
doing more?
    General Rochelle, General Cheek, General Rubenstein, and General 
Wilson. The Army Medical Community continually seeks Retirees to fill 
cadre positions at Warrior Transition Units. The time taken to complete 
this process has been reduced from months to an average of 30 days. 
Retirees from special branches--Medical Corps, Chaplain Corps, 
Aviation, and Judge Advocate Corps--require more checks to ensure they 
have retained their skills and credentials, thus a slight increase in 
processing time.
    The Army, beginning in July 07, has taken several steps to make 
processing retiree recalls more efficient and effective, such as 
conducting physical exams during in-processing, utilizing requirements-
based requests to recall Retired Soldiers to Active Duty, 
simplification of endorsement requirements for Retiree packets, and 
approval of Colonel/Senior Executive Service endorsement of Category I, 
II Retirees. These changes to the policy have improved the processing 
time for by-name requests originating in units and Commands. Efforts 
are currently underway to automate the recall process thus allowing a 
Retiree to view online available positions, submit a request for 
recall, and receive confirmation and orders, which will further help 
streamline the volunteer process.
    Mrs. Davis. We have heard stories by the Warrior Transition Unit 
cadre that part of the reason some WTUs are being overwhelmed is that 
they are being ``abused'' by reserve component mobilization sites. 
Specifically, the cadres have complained that at many installations, 
all reserve component personnel who are diagnosed with an illness or 
injury 25 days or later after mobilization are automatically assigned 
to the WTU. The cadres have described how many of these soldiers should 
never have been mobilized in the first place, that they were clearly 
not medically fit before they were mobilized. What steps are being 
taken to ensure that an adequate medical screening is taking place 
before reservists are mobilized?
    General Rochelle, General Cheek, General Rubenstein, and General 
Wilson. The Army is ensuring that adequate medical screening is taking 
place before Reserve Component Soldiers are mobilized. All Army 
National Guard and Army Reserve Soldiers go through several levels of 
screening to identify non-deployable conditions prior to deployment.
    The Periodic Health Assessment (PHA) has replaced the 5-year 
physical. This annual screening is highly focused on readiness and will 
improve identification of medical nondeployables throughout the 
ARFORGEN deployment cycle. Additionally, Soldiers are screened with a 
DD 2795 Pre-Deployment Health Assessment. The DD 2795 screening is 
conducted through a unit-level Soldier Readiness Process (SRP) event 
approximately 270 days prior to the Soldiers' mobilization station 
arrival date (MSAD) and is validated upon arrival at the mobilization 
site. All Soldiers are required to have an annual dental screening and 
correct significant dental problems prior to deployment.
    All Reserve Component Soldiers also participate in a level II SRP 
as soon as possible after their unit is alerted, but no later than 30 
to 90 days prior to MSAD. For the Army National Guard, the Soldier's 
State conducts the level II SRP. For the Army Reserve, the Soldier's 
Regional Readiness Command (RRC)/Regional Support Command (RSC) 
conducts the level II SRPs. During the level II SRP, medical/dental 
staff confirm that the Soldier has completed all required medical and 
dental readiness exams. Those identified with discrepancies are 
reported to the unit commander for follow up action. The Unit Commander 
utilizes the Reserve Health Readiness Proaram or contractors to 
eliminate readiness deficiencies.
    In fiscal year 2008, the Army National Guard Directorate and the 
United States Army Reserve Command published guidance reemphasizing the 
level I and II SRP responsibilities for all Reserve Component 
Commanders.
    A third screening takes place upon mobilization when the Soldier 
receives a Soldier Readiness Check (SRC) at the mobilization site prior 
to starting field training. The Soldier receives an additional SRC 
within 30 days of their actual deployment. If a Soldier is cleared at 
the SRC during mobilization and subsequently becomes ill, is injured, 
or aggravates a pre-existing condition, then the Soldier is eligible 
for assignment to the WTU.
    Mrs. Davis. The phrase ``the best barracks on post'' was used in 
your opening statement, in the Army Medical Action Plan Execution 
Order, and in subsequent Fragmentary Orders. However, that does not 
always seem to be the case. For example, at Fort Bliss, the Warriors in 
Transition are in Tier II or transient barracks. At what other 
installations is this the case? What are you doing to meet your own 
standard of ``the best barracks on post''?
    General Wilson. In all cases at all installations, Warriors in 
Transition (WT) are located in the best available barracks on post. For 
WTs, the best barracks are those modified to meet their special needs. 
WT barracks have been modified, or are being modified, to improve 
accessibility. Modifications include wheelchair ramps, elevators, 
handicap crosswalks, lever latches on doors, lever faucets on sinks, 
keyless entries, widening doors, removing thresholds, improving 
bathroom accessibility, Americans with Disabilities Act (ADA) compliant 
furniture, and many other features.
    The location of WT barracks on an installation is a critical factor 
in determining the best available barracks on post. The specific 
location is a decision jointly reached by the Senior Mission Commander, 
Medical Treatment Facility, and Garrison Commander based on various 
factors, such as the needs of WTs, proximity to medical treatment 
facilities, the installation's transportation network, and an 
environment that promotes healing.
    The Army is establishing dedicated standards and requesting new 
construction in supplemental appropriations. The Army standard for new 
WT barracks consists of two-bedroom with shared bath, and two-bedroom 
with private bath modules. The dimensions, in general, are greater than 
existing permanent party billeting standards to meet ADA circulation 
requirements.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MCHUGH
    Mr. McHugh. During the committee staff visits, case managers, squad 
leaders and warriors in transition told the staff that they often felt 
that the narrative summary included in the MEB packet did not 
accurately reflect the soldier's complete medical condition. This was 
particularly true when the soldier had a mental health diagnosis. What 
assurances can you provide us that any attempt to streamline or speed 
up the MED process will not negatively affect the accuracy of the MEB?
    General Wilson. The U.S. Army Medical Command (MEDCOM) and the 
Physical Disability Agency (PDA) are developing a statement to be 
signed by the Soldier (or a Family Member in cases where the Soldier is 
identified with a behavioral health diagnosis) before the Soldier's 
Medical Evaluation Board (MEB) case is forwarded to the Physical 
Evaluation Board (PEB). This statement will require the Soldier to 
either confirm that there are no discrepancies between the Medical 
Evaluation Board Proceedings (DA Form 3947), the medical narrative 
summary (NARSUM), and the permanent profile (DA Form 3349) or identify 
the discrepancies. In addition, ongoing MEB streamlining initiatives 
have recommended process changes to ensure that Soldiers and Families 
are given sufficient time to obtain an independent NARSUM review and 
consult with an attorney regarding their case and any appeal. Finally, 
MEDCOM is evaluating a best business practice that requires the 
Soldier's presence during the generation of the NARSUM so that issue 
discussion and document generation occur simultaneously.
    Mr. McHugh. Last year the Wounded Warrior Assistance Act of 2007 
and the House version of the National Defense Authorization Act for 
Fiscal Year 2008 included a provision that established the requirement 
for case managers for wounded warriors at a ratio of not more than 17 
soldiers per case manager. The Army disagreed with legislated ratios 
and on several occasions, including during testimony before the 
subcommittee, asked for latitude to use experience and lessons learned 
to determine appropriate ratios for Warrior in Transition and for 
Congress to not micromanage that process. We gave you that latitude and 
now our staff finds that the ratios for case managers and squad leaders 
at almost all of the WTUs they visited, far exceed the ratios set by 
the Amy. a. What happened? b. Were the ratios set by the Army 
incorrect? c. How will the new ratio of 1:20 for case managers included 
in the latest FRAGO improve the care of the soldiers? d. Given the 
resources constraints that already exist, how will you provide the 
additional case managers?
    General Wilson. The Army has addressed staffing ratio issues with 
the publication and execution of FRAGO 3. Staffing ratios and position 
requirements for WTUs will continue to be reviewed on an ongoing basis.
    a. The dramatic increase in our population of Warriors in 
Transition challenged us to keep pace with sufficient WTU cadre, care 
providers, and facilities for these deserving Soldiers and their 
Families. The Army had been using a peacetime process to build and 
staff Warrior Transition Units. This process was not responsive to the 
rapid population growth experienced in our WTUs as Soldiers undergoing 
Medical Evaluation Boards were being moved to the WTUs. FRAGO 3 
specifically addressed this shortfall by: (1) establishing entry and 
exit criteria to the WTU; (2) directing new staffing ratios for cadre 
and care providers; and (3) authorizing the Triad of Leadership, which 
consists of the Senior Commander, the Military Treatment Facility 
Commander, and the WTU Commander, at each installation to fill WTU 
requirements on a priority basis.
    b. The ratios originally established by the Army were not optimal 
in some cases. This was demonstrated during a thorough manpower 
analysis completed in early 2008 by the U.S. Army Manpower Analysis 
Agency (USAMAA). As a result of this analysis, USAMAA recommended we 
modify the staff to Warrior in Transition ratios in certain positions 
such as Nurse Case Manager (from 1:36 to 1:20), Squad Leader (from 1:12 
to 1:10), and Platoon Sergeant (from 1:35 to 1:40). These changes were 
directed in FRAGO 3 to DA EXORD 118-07 and were effective October 17, 
2008. Position requirements for WTUs continue to be reviewed on an 
ongoing basis and adjusted quarterly.
    c. Our experience over the past 16 months has indicated that the 
Triad of Care is an extremely effective approach to managing the care 
of Warriors in Transition. The revised ratios will allow Nurse Case 
Managers and Squad Leaders to concentrate their attention on fewer 
Warriors in Transition, thereby enabling them to focus more effectively 
on the requirements of each Soldier and his/her Family. Coupled with 
the implementation of the Comprehensive Transition Plan that provides a 
detailed roadmap for recovery, rehabilitation, and reintegration for 
each Warrior in Transition, the Triad of Care will be able to manage 
more effectively the care and progress of each assigned Soldier.
    d. In anticipation of the programmed TDA change directed in FRAGO 
3, all WTUs have been staffed at or above 100% of requirements based on 
the Warrior in Transition population. As a result, much of the 
additional staffing requirement was in place prior to the October 17, 
2008 effective date. Additionally, the Triad of Leadership has been 
authorized to fill any remaining requirements on a priority basis from 
existing installation resources or by hiring required personnel. This 
responsive approach is expected to ensure complete staffing of each WTU 
based on the Warrior in Transition census.
    Mr. McHugh. In light of assurances from the Army leadership that 
the WTUs along with the Army Medical Action Plan will fix the problems 
uncovered last year at Walter Reed, I am concerned that some of the 
problems have continued in the WTUs. For example, in at least two WTUs, 
Fort Polk and Fort Drum, recovering warriors in transition are filling 
squad leader positions. In some cases, they are functioning as 
assistant squad leaders because there is no back up for a squad leader 
when they take leave or attend military schools. Why is this still 
happening? What additional positions will the Army provide to allow 
coverage for squad leaders and the other personnel in the triad?
    General Wilson. No Warrior in Transition is required to assume the 
duties of a WTU cadre member. More importantly, the U.S. Army Medical 
Command (MEDCOM) established stringent criteria for Warrior in 
Transition participation in WTU cadre duties in Fragmentary Order 17 to 
MEDCOM Operation Order 07-55 which states:

        Warriors in Transition will only be assigned as duty drivers 
        and fill WTU cadre positions while assigned to WTUs on a case 
        by case basis with the approval of the local WTU Commander and 
        or Command Sergeant Major/First Sergeant. The assignment of WTs 
        as duty drivers and WTU cadre will be the exception and not the 
        rule.

    Further, preparing to transition back to the force or to a 
productive civilian and/or veteran status is an important element of 
the Warrior in Transition's mission to heal. Hence, functioning as a 
WTU cadre member can be part of the healing mission.
    As of October 22, 2008, only 15 Warriors in Transition are 
performing duties as WTU cadre members (out of a population of 9,878 
Warriors in Transition assigned or attached to WTUs and an additional 
1,415 Warriors in Transition attached to Community Based WTUs 
(CBWTUs)). Of these 15, one was recently continued on Active Duty; two 
are currently transitioning to continued on Active Reserve status, 
effective November 1; one has healed and is awaiting transfer to an 
Active Component unit; one has recovered and will be assigned to an 
Active Component unit as Battalion Executive Officer, beginning in 
November; five are attached to a CBWTU and are functioning in CBWTU 
cadre positions as their regular duty due to a lack of other duty 
positions near their homes; and the remaining five have been determined 
by the Triad of Care to be sufficiently recovered to function in WTU 
Squad Leader (4 individuals) and Platoon Sergeant (1 individual) 
positions as part of their therapeutic work requirement as they 
continue to heal and prepare to transition back to the force. None of 
these 15 WTs are from Fort Polk or Fort Drum.
    The current system of managing Warrior in Transition care is 
working well. As part of the process of assessing the ability of each 
of the previously mentioned 15 Warriors in Transition to function in 
WTU cadre positions, the Triad of Care developed risk mitigation plans. 
These are carefully structured plans to determine if cadre duty is 
appropriate and it requires the approval of the WTU Commander. 
Additionally, the Triad of Care, with the input of other medical and 
health care professionals involved with the care of these Soldiers, 
develops a Comprehensive Transition Plan to guide the management of the 
therapeutic work activities of Warriors in Transition who are assigned 
WTU cadre duties to ensure they continue to contribute to the healing 
and transition process. The fact that only one tenth of one percent of 
Warriors in Transition are performing WTU cadre duties is an indication 
that the prescribed case-by-case approach is being applied judiciously.
    The Army has no plans to build additional positions to allow back-
up coverage for squad leaders and the other personnel in the triad. The 
new ratio of cadre to Warriors in Transition was determined to be 
appropriate to manage Warriors in Transition. These ratios are based on 
a careful and thorough manpower analysis conducted by the U.S. Army 
Manpower Analysis Agency in May of 2008. Further assessments of WTU 
staffing will continue on a quarterly basis.
    Mr. McHugh. For various reasons many warriors in transition require 
transportation beyond the normal shuttle bus service provided on most 
Army installations. Each WTU has a different system for providing this 
transportation. Some use contract drivers with government vehicles. 
Others reply on the squad leaders to drive the government vehicles and 
a few employ warriors in transition using government vehicles to drive 
their fellow warriors. Squad leaders have reported that due to 
shortages in government vehicles they are often required to use their 
private vehicles, sometimes driving over 25 miles per day at their own 
expense. It was my understanding that the practice of using recovering 
soldiers as drivers had stopped. I would like your thoughts on the best 
way to provide this transportation and your plans for any changes to 
the system.
    General Wilson. The Army has re-evaluated the original vehicle 
support requirements for Warrior Transition Units (WTUs) and has 
identified the shortfalls that required WTU cadre to use their personal 
vehicles. The Army is addressing these shortfalls in a variety of ways 
at the local, regional, and Army levels including reallocating vehicles 
from existing Army inventories and/or entering into short-term local 
contracts to meet surges in WTU transportation requirements. We are 
resolving shortfalls in driver support requirements through a 
combination of hired civilian drivers, contract drivers, Military 
Treatment Facility personnel, WTU cadre, and in very limited cases, 
Warriors in Transition. WTUs also have the ability to request 
additional vehicle support from the installation when needed. WTU cadre 
members' personal vehicles are used only on an exceptional and 
reimbursable basis when available transportation assets are not 
sufficient to meet demand. WTU leaders know to request additional 
contracted vehicle support when cadre members are using their personal 
vehicles on more than an exceptional basis.
    Mr. McHugh. The June 2008 AMAP execution order requires that 
warriors in transition live in billets, housing, or lodging, at or 
above Army billeting standards that accommodate the soldier's medical 
conditions or limitations. At Fort Bliss, WTU soldiers are living in 
Tier II or transient barracks that are not considered the best barracks 
on post. a. Why are the WTU soldiers living in Tier II barracks? b. 
What is the Army's plan for moving the soldiers into barracks that meet 
the required standards? c. When will the soldiers move?
    General Wilson. The current WT facilities at Fort Bliss and across 
the Army are in overall good condition, with no life, health, or safety 
issues. Fort Bliss selected the best facilities to support WT medical 
and logistical needs based on suitable Soldier rooms; availability of 
administration and counseling space for case managers; proximity to 
dining facility, medical counseling, Army Community Service, interim 
Soldier Family Assistance Center (SFAC), key MWR facilities and other 
support services (PX, commissary, banks, post office, etc.), the Fort 
Bliss USO Center; and ability to execute ADA-compliant facility 
improvements. Other barracks, which may be better in terms of 
infrastructure and age, are not ADA compliant and do not meet specific 
WT needs.
    Fort Bliss is committed to raising WT barracks to the highest 
possible standards by customizing these barracks through a series of 
renovation projects. The Army funded $8.8 million in August 2007 to 
renovate existing WTU facilities as an interim enhancement until 
permanent facilities are constructed. Three sets of barracks are 
currently under renovation, with a projected completion date of October 
2008. Renovation includes ADA compliance upgrades (additional ramps, 
elevators, accessible rest rooms, and common areas) and other 
improvements such as individual room renovations. This is in addition 
to previous renovations, which included air conditioning upgrades 
completed last year.
    The Army is requesting permanent WTU facilities for Fort Bliss in 
the fiscal year 2009 GWOT supplemental for $56 million, which will 
include a complete ADA compliant complex for barracks, headquarters, 
and a permanent SFAC. The Fort Bliss plan, when completed, will ensure 
that WT barracks are the best on post. The existing barracks will be 
used as overflow until the permanent WTU complex is constructed.
    Mr. McHugh. WTUs soldiers and cadre consistently voice concern 
about their inability to get promoted or selected for school while they 
are in the WTU. This seems to be a particular problem for reserve 
component personnel and I would imagine it plays a part in an 
individual's decision to join the cadre of a WTU. Why are the warriors 
in transition and cadre having difficulty getting promoted or selected 
for school? What are your plans for ensuring that WTU assignments do 
not become a hindrance to soldiers' careers?
    General Rochelle. The Army has already taken numerous steps to 
ensure that Soldiers assigned as WTU cadre members and Warriors in 
Transition remain competitive for promotion. Promotion policy changes 
already implemented include the waiver of initial Professional Military 
Education (PME) requirements for promotion; the addition of specified 
promotion board guidance within the centralized promotion selection 
process for both WTU cadre members and Warriors in Transition; the 
authority to accelerate the advancement of Soldiers to the rank of SPC 
(E4) based on the total number of Soldiers qssigned as patients; and 
changes to the method of computing promotion points to SGT/SSG to 
ensure that Soldiers who have temporary or permanent physical profiles 
stemming from wounds or injuries directly related to combat operations 
are not disadvantaged by their inability to take a Army 
Physical.Fitness Test.
    For Reserve Component (RC) WTU cadre members and Warriors in 
Transition, selection for promotion remains a vacancy-driven process 
that is tied to requirements in their parent RC unit. RCWTU cadre 
members and Warriors in Transition remain eligible for promotion 
selection while assigned to a WTU in the same manner as all mobilized 
RC Soldiers. If selected for promotion they are promoted against their 
RC parent unit of assignment requirements. Upon release from active 
duty, all RC Soldiers who were promoted while mobilized have one year 
from date of release from active duty to be assigned to a valid 
position to retain their promotion. Promotable RC WTU Soldiers who are 
separated from the military or retired for medical disability are 
promoted at that time.
    The Army does not centrally select Soldiers for PME except for 
attendance at the United States Army Sergeants Major Academy. RC 
Soldiers assigned as cadre to a WTU and Warriors in Transition remain 
eligible for selection to attend PME. For RC cadre, selection for and 
attendance to PME does not normally present a challenge. However, there 
are occasions when multiple members of a WTU are scheduled to attend 
PME courses at the same or overlapping times. In such cases, the WTU 
chain of command may request select cadre members be rescheduled for 
alternate classes to ensure sufficient cadre are present for duty to 
accomplish the WTU mission. For Warriors in Transition, the Army's 
primary mission and concern is to ensure these Soldiers receive the 
best possible medical care to restore them to their maximum level of 
medical fitness.
    Mr. McHugh. It appears that one of the biggest challenges for Army 
medicine right now is providing mental health care to the warriors in 
transition and their families. I understand that providing inpatient 
psychiatric care is particularly difficult since many Army hospitals do 
not currently have this capability. I am told that in some areas the 
nearest available inpatient psychiatric care may be in the next state. 
What is your plan for providing comprehensive and timely mental health 
care, to include appropriate inpatient and partial hospitalization, for 
the warriors in transition and their families?
    General Rubenstein. The Army currently relies on local or regional 
civilian inpatient facilities and Veterans Affairs inpatient facilities 
to provide most inpatient psychiatric services; however, the Army does 
have thirteen military treatment facilities that can also provide these 
services. These facilities are located at Fort Bliss, TX; Fort Hood, 
TX; Fort Leonard Wood, MO; Walter Reed Army Medical Center, Washington, 
DC; Fort Bragg, NC; Fort Gordon, GA; Fort Benning, GA; Fort Stewart, 
GA; Fort Jackson, SC; Madigan Army Medical Center, WA; Landstuhl 
Regional Medical Center, Germany; Tripler Army Medical Center, HI; and 
Korea. In addition, Brooke Army Medical Center uses dedicated bed space 
provided by the Air Force at Wilford Hall Hospital for inpatient 
psychiatric care.
    The Army also has long-standing intensive outpatient programs (IOP) 
at Walter Reed Army Medical Center. Additionally, the Army is funding 
an IOP pilot at Tripler Army Medical Center and Eisenhower Army Medical 
Center, with the intent to standardize and execute intensive outpatient 
within each of our six Regional Medical Commands.
    To increase behavioral health care to wounded warriors, the Army 
hired 115 Social Workers in WTUs to provide surveillance and direct 
services to wounded warriors and their Families. Priority of effort has 
been on comprehensive psychosocial assessments and risk management, 
completion of the Comprehensive Care Plan, and compliance with the Risk 
Assessment and Mitigation Policy.
    The Army has likewise expanded the delivery of behavioral 
healthcare services for the total force. In FY08, the Army received 
over $120 million in supplemental funds to provide enhanced 
psychological health services. This funding has been used to hire over 
285 behavioral health providers, including 42 marriage and family 
therapists, and to fund over 45 programs to improve access to care, 
resilience, quality of care, and surveillance. The Army has also 
invested over $12 million in FY08 in facilities and inpatient 
renovations and expansion. Significant among these was the renovation 
of the Walter Reed Army Medical Center and Tripler Army Medical Center 
psychiatric inpatient wards and the expansion of the inpatient 
capability at the Dwight David Eisenhower Medical Center at Fort 
Gordon, GA, from 6 to 16 beds. In FY09, the Army plans to continue to 
assess the existing inpatient capabilities at installations and 
renovate or expand these capabilities as appropriate.
    Finally, the Army is in the process of developing a Comprehensive 
Soldier Fitness Strategy which includes the six categories of wellness 
(social, spiritual, emotional, family/finance, career and physical). 
The strategy recognizes the need to enhance the current health of 
Soldiers and their Families, prevent future problems, and provide 
treatment when problems arise.
    Warriors in Transition receive priority appointments and medical 
care, but the Army also provides inpatient and intensive outpatient 
psychiatric care to other eligible beneficiaries and the availability 
of such care varies from installation to installation.

                                  <all>

</pre></body></html>
